<html>
<title> - SECURITY AT THE DEPARTMENT OF ENERGY'S LABORATORIES: THE PERSPECTIVE OF THE GENERAL ACCOUNTING OFFICE</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
SECURITY AT THE DEPARTMENT OF ENERGY'S LABORATORIES: THE PERSPECTIVE OF 
                     THE GENERAL ACCOUNTING OFFICE

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                      OVERSIGHT AND INVESTIGATIONS

                                 of the

                         COMMITTEE ON COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 20, 1999

                               __________

                           Serial No. 106-31

                               __________

            Printed for the use of the Committee on Commerce



                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 56-604 CC                   WASHINGTON : 1999
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON COMMERCE

                     TOM BLILEY, Virginia, Chairman

W.J. ``BILLY'' TAUZIN, Louisiana     JOHN D. DINGELL, Michigan
MICHAEL G. OXLEY, Ohio               HENRY A. WAXMAN, California
MICHAEL BILIRAKIS, Florida           EDWARD J. MARKEY, Massachusetts
JOE BARTON, Texas                    RALPH M. HALL, Texas
FRED UPTON, Michigan                 RICK BOUCHER, Virginia
CLIFF STEARNS, Florida               EDOLPHUS TOWNS, New York
PAUL E. GILLMOR, Ohio                FRANK PALLONE, Jr., New Jersey
  Vice Chairman                      SHERROD BROWN, Ohio
JAMES C. GREENWOOD, Pennsylvania     BART GORDON, Tennessee
CHRISTOPHER COX, California          PETER DEUTSCH, Florida
NATHAN DEAL, Georgia                 BOBBY L. RUSH, Illinois
STEVE LARGENT, Oklahoma              ANNA G. ESHOO, California
RICHARD BURR, North Carolina         RON KLINK, Pennsylvania
BRIAN P. BILBRAY, California         BART STUPAK, Michigan
ED WHITFIELD, Kentucky               ELIOT L. ENGEL, New York
GREG GANSKE, Iowa                    THOMAS C. SAWYER, Ohio
CHARLIE NORWOOD, Georgia             ALBERT R. WYNN, Maryland
TOM A. COBURN, Oklahoma              GENE GREEN, Texas
RICK LAZIO, New York                 KAREN McCARTHY, Missouri
BARBARA CUBIN, Wyoming               TED STRICKLAND, Ohio
JAMES E. ROGAN, California           DIANA DeGETTE, Colorado
JOHN SHIMKUS, Illinois               THOMAS M. BARRETT, Wisconsin
HEATHER WILSON, New Mexico           BILL LUTHER, Minnesota
JOHN B. SHADEGG, Arizona             LOIS CAPPS, California
CHARLES W. ``CHIP'' PICKERING, 
Mississippi
VITO FOSSELLA, New York
ROY BLUNT, Missouri
ED BRYANT, Tennessee
ROBERT L. EHRLICH, Jr., Maryland

                   James E. Derderian, Chief of Staff

                   James D. Barnette, General Counsel

      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

              Subcommittee on Oversight and Investigations

                     FRED UPTON, Michigan, Chairman

JOE BARTON, Texas                    RON KLINK, Pennsylvania
CHRISTOPHER COX, California          HENRY A. WAXMAN, California
RICHARD BURR, North Carolina         BART STUPAK, Michigan
  Vice Chairman                      GENE GREEN, Texas
BRIAN P. BILBRAY, California         KAREN McCARTHY, Missouri
ED WHITFIELD, Kentucky               TED STRICKLAND, Ohio
GREG GANSKE, Iowa                    DIANA DeGETTE, Colorado
ROY BLUNT, Missouri                  JOHN D. DINGELL, Michigan,
ED BRYANT, Tennessee                   (Ex Officio)
TOM BLILEY, Virginia,
  (Ex Officio)

                                  (ii)



                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Rezendes, Victor S., Director, Energy, Resources, and Science 
      Issues; accompanied by John Schulze, Assistant Director, 
      Energy, Resources, and Science Issues; William Fenzel, 
      Assistant Director, Energy, Resources, and Science Issues; 
      and Gary Boss, Assistant Director, Energy, Resources, and 
      Science Issues, General Accounting Office..................    17

                                 (iii)



SECURITY AT THE DEPARTMENT OF ENERGY'S LABORATORIES: THE PERSPECTIVE OF 
                     THE GENERAL ACCOUNTING OFFICE

                              ----------                              


                             APRIL 20, 1999

                  House of Representatives,
                             Committee on Commerce,
               Subcommittee on Oversight and Investigation,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m., in 
room 2322, Rayburn House Office Building, Hon. Fred Upton 
(chairman) presiding.
    Members present: Representatives Upton, Burr, Bilbray, 
Bliley (ex officio), Klink, Stupak, and Dingell (ex officio).
    Also present: Representative Wilson.
    Staff present: Tom Dilenge, majority counsel; Jan Faiks, 
majority counsel; Jason L. Foster, legislative clerk, and Edith 
Holleman, minority counsel.
    Mr. Upton. It's 2 o'clock, we're going to begin the 
hearing. I know a number of members are scattered all over the 
place, and they will be here and back a few times. In the 
interest of time, and in the interest of a very important 
meeting on another important topic to the country, and 
certainly to Michigan, the nuclear waste bill, there is a 
meeting between Mr. Bliley and Mr. Dingell that is supposed to 
take place at 2 o'clock, and since both members are here and it 
is after 2 o'clock, I am going to let them give the opening 
statements. Mr. Bliley.
    Chairman Bliley. Thank you, Mr. Chairman. Our committee has 
jurisdiction over the operations and management of the 
Department, including its privately run laboratories. Over the 
past two decades, this committee has taken a strong bipartisan 
interest in ensuring that the Department's laboratories 
maintained effective security systems, and that the 
Department's internal security reviews offer timely and candid 
assessments of the status of safeguards at particular sites.
    Unfortunately, the Department's history in this area can 
most charitably be characterized as spotty at best. The 
historical pattern is clear, internal Department criticism on 
security matters either gets dismissed or white-washed until 
some event crystalizes public attention--which in turn leads to 
a flurry of reform initiatives that sound great in theory but 
falter against the reality of the DOE bureaucracy. And once 
public attention has shifted to some other topic--as it 
inevitably does--the Department returns to business as usual.
    The written testimony that we have received today from the 
General Accounting Office makes this point all too clear. A 
perfect example is the Department's response to criticism in 
1988 that its nuclear weapons laboratories were not conducting 
adequate background checks and other counterintelligence 
activities with respect to foreign visitors from sensitive 
countries such as China. DOE agreed to increase background 
checks on such visitors and brought in agents from the Federal 
Bureau of Investigation as detailees to help improve 
counterintelligence at the labs. However, in 1994, the 
Department granted waivers from the background check mandate to 
two of its most sensitive weapons labs. Around the same time, 
the FBI pulled its agents out of the Department because it 
believed that their views and recommendations on 
counterintelligence were not being taken seriously by managers 
at the labs and at DOE headquarters.
    Not surprisingly, when GAO returned to this topic in 1997, 
it found that the foreign visitor situation at these two labs 
had only gotten worse, despite all the promises of reform back 
in 1988. GAO notes in its testimony today that the current 
Chinese espionage scandal has spawned similar promises of 
reform--increased background checks and FBI systems with 
counter-intelligence. But until we address the underlying 
causes of the Department's systematic security failures, I feel 
we may be doomed to repeat history's mistakes.
    I also am troubled by the repeated suggestions that the 
recent spy charges are old news--isolated, historical events 
that occurred on some other administration's watch and could 
not occur today because of new security measures put in place. 
I believe the testimony this afternoon will shed considerable 
doubt upon those claims, which demonstrate a marked arrogance 
and ignorance of both history and current events. As GAO will 
discuss this afternoon, security problems--particularly in the 
area of computer security--continue to persist unresolved, even 
today, posing a significant threat to our Nation's most prized 
secrets.
    While no system can ever be fail-safe, the American people 
deserve better than this. I hope that the bipartisanship that 
was present when we looked at past administration activities in 
this area will not suffer as we begin, along with GAO, to look 
more closely at the current state of security at the 
Department's sensitive facility.
    Thank you, Mr. Chairman.
    Mr. Upton. Thank you, Mr. Chairman. Mr. Dingell.
    Mr. Dingell. Mr. Chairman, thank you.
    I would commend you for holding this hearing, and I want it 
to be noted that I am very pleased to see that this 
subcommittee is, once again, taking up the very important and 
challenging issue of security and safeguards at our country's 
nuclear weapons laboratories. This is a matter into which this 
committee has been going, both during the time that I have been 
chairman and the time that you have been chairman, and the time 
that others have presided over the business of the committee, 
to ascertain what is transpiring with regards to safety and 
security at these nuclear facilities. This subcommittee and 
this committee have a long and proud history of bipartisan work 
on this issue.
    I have, attached to my statement, a letter detailing the 
committee's previous work on unclassified matters, that I sent 
to former Senator Warren Rudman, who was charged by President 
Clinton to look at the security of these labs. Today's hearings 
will not address classified matters; but, I know that the 
committee's previous attention to these matters was quite 
sweeping, and did address a number of matters of serious 
concern to the country.
    As you know, Mr. Chairman, the safeguards and security 
problems at the Department of Energy has spanned five different 
administrations, at least eight Energy Secretaries, the cold 
war, the end of the cold war, the era of non-proliferation, and 
the new era of emerging nuclear powers. We cannot lay the blame 
of these shortcomings as the fleet of any one President, or any 
one Energy Secretary. We know, from personal experience on this 
committee, that despite talk of personal terrorism, or rather 
potential terrorism, each President and almost all Energy 
Secretaries have responded inadequately to both external and 
internal warnings; that all was not well. Many of those 
warnings have come, I would note, from this subcommittee over 
the years, and the period during which those warnings have come 
has exceeded at least 10 years, and perhaps more. None of the 
Secretaries, and none of the Presidents, gave the security 
operations staffing or the funding that it needed to protect 
our most secret weapons facilities. Negative evaluations were 
buried. Whistleblowers were punished. And private contractors, 
which actually ran the labs, and are employers of all the lab 
staff, often refused to make changes to improve security at 
their facilities, in defiance of Department of Energy mandates 
and warnings of this subcommittee. Scientists are not trained 
to understand how they might be targeted, and how they might be 
solicited, as sources of secret information. The labs had no 
counterintelligence operation, because funding of such an 
undertaking would take money away from program funds.
    This subcommittee found out, in 1982 and 1989, that 
protecting its sensitive nuclear weapons facilities is not a 
high priority at DOE, then, or now. In 1981, when this 
subcommittee began its formal investigation into safeguards and 
securities at the labs, with the assistance of the General 
Accounting Office--and by the way, I want to observe, Mr. 
Rezendes, and your associates, we appreciate the good work you 
did then on this matter, and on a number of other of other 
matters--that our weapon facilities were potential and 
vulnerable targets for state-sponsored and other terrorists.
    As a result, this subcommittee, the General Accounting 
Office, and the internal Department of Energy reports often 
focused on shortcomings in physical security and related 
management problems that allowed them to continue. A long 
series of GAO reports was done for this committee and for this 
subcommittee, or for the Senate Governmental Affairs Committee, 
under the leadership of our former colleague, Senator John 
Glenn.
    By the late 1980's, Congress was also looking at the 
interaction of our scientists with foreign scientists, through 
the foreign visitors' programs. Numerous security violations in 
that program were uncovered, which remained unaddressed when 
the GAO began to look at it again in 1997.
    The security of the computer systems and the problems with 
the counterintelligence operation were other important areas in 
which GAO raised serious concerns. I am encouraged that 
Secretary Richardson has responded quickly in addressing 
allegations of espionage, creating our lab scientists to 
recognize and withstand attempts by foreign interests, use them 
as sources of critical information, as essential for the long-
term security of this country, as is the understanding and 
strengthening of the labs' computer system. But we know from 
past experience that aggressive and continued congressional 
oversight is needed to fix these problems, after the crisis and 
news headlines have passed.
    I hope, Mr. Chairman, that this subcommittee will take up 
the task again. I look forward to working with you, and 
cooperating with you, in the same bipartisan fashion we have 
done in times past, when we have addressed these matters. And I 
am hopeful at this time we will have better success, in terms 
of dealing with yet another administration that has not done 
the kind of job that it should have done, in terms of dealing 
with security at major weapons and defense facilities.
    I thank you for recognizing me, Mr. Chairman.
    [The prepared statement of Hon. John D. Dingell follows:]
    Prepared Statement of Hon. John D. Dingell, a Representative in 
                  Congress from the State of Michigan
    Mr. Chairman, I am very pleased to see that this Committee, once 
again, is taking up the very important and challenging issue of 
security and safeguards at our country's nuclear weapons laboratories. 
We have a long and proud history of bipartisan work on this issue. I 
have attached to my statement a letter detailing the Committee's 
previous work on unclassified matters that I sent to Warren Rudman, who 
was charged by President Clinton to look at security at the labs. 
Today's hearing will not address classified matters, but I note this 
Committee's previous attention to those matters as well.
    As you know, Mr. Chairman, safeguards and security problems at the 
Department of Energy have spanned five different administrations, at 
least eight Energy secretaries, the Cold War, the end of the Cold War, 
and the era of nonproliferation and new, emerging nuclear powers. We 
cannot lay the blame for these shortcomings at the feet of any one 
President or any one Energy Secretary. We know from personal experience 
that--despite all talk of potential terrorism--each President and 
almost all Energy secretaries have responded inadequately to both 
external and internal warnings that all was not well.
    None of them gave the security operation the staffing or funding it 
needed to protect our most secret weapons facilities. Negative 
evaluations were buried; and whistle blowers punished. The private 
contractors, which actually run the labs and are the employers of all 
of the lab staff, often refused to make changes to improve security at 
their facilities in defiance of Department of Energy mandates. 
Scientists were not trained to understand how they might be targeted 
and solicited as sources of secret information. The labs had no 
counter-intelligence operation because funding it would take away from 
program funds. This Subcommittee found in 1982 and 1989 that protecting 
its sensitive nuclear weapons facilities was not a high priority for 
DOE.
    In 1981, when this Subcommittee began its first formal 
investigation into safeguards and securities at the labs--with the 
assistance of the General Accounting Office--our weapons facilities 
were potential, and vulnerable, targets for state-sponsored and other 
terrorists. As a result, we, the General Accounting Office, and 
internal Department of Energy reports often focused on shortcomings in 
physical security, and related management problems that allowed them to 
continue. A long series of GAO reports was done for this Committee or 
for the Senate Governmental Affairs Committee, under the leadership of 
John Glenn.
    By the late 1980s, Congress was also looking at the interactions of 
our scientists with foreign scientists through the foreign visitors 
programs. Numerous security violations in that program were uncovered 
which remained unaddressed when GAO looked at it again in 1997. The 
security of the computer systems and problems in the 
counterintelligence operation were other important areas in which GAO 
raised concerns.
    I am encouraged by Secretary Richardson's quick action in response 
to the latest allegations of espionage. Training our lab scientists to 
recognize and withstand attempts by foreign interests to use them as 
sources of critical information is essential to our long-term security, 
as is understanding and strengthening security of the labs' computer 
system. But we know from past experience that aggressive and continuous 
Congressional oversight is needed to fix these problems after the 
crisis and the news headlines have passed. I hope, Mr. Chairman, that 
this Committee will take up that task again.
                                 ______
                                 
                      U.S. House of Representatives
                                      Committee on Commerce
                                                     March 24, 1999
The Honorable Warren Rudman
President's Foreign Intelligence Advisory Board
Room 340, Old Executive Office Building
Washington, D.C. 20502
    Dear Warren: First, let me congratulate you on your recent 
appointment to lead the bipartisan review of security threats to the 
U.S. nuclear weapons laboratories over the last twenty years. I am 
hopeful that your review will finally focus appropriate attention on a 
very serious and longstanding problem that has been ignored, 
mismanaged, and/or covered up during several Administrations. 
Unfortunately, your effort is only the latest in a long line of reviews 
undertaken by, among others, the General Accounting Office (GAO), the 
Department of Energy (DOE) and its Inspector General, the U.S. Nuclear 
Command and Control System Support Staff, and various Congressional 
committees, the results of which have been uniformly ignored by the 
responsible officials.
    I am also writing to offer you my assistance as you undertake this 
review. During my 14-year tenure as chairman, the Subcommittee on 
Oversight and Investigations of the Committee on Energy and Commerce 
conducted several classified and unclassified inquiries into this 
matter. (This letter discusses the unclassified portion of our work.) 
We found a disturbing pattern of security weaknesses in the contractor-
run national weapons laboratories, along with extraordinarily lax 
oversight by the Department of Energy (DOE). As you may already know, 
these problems included: laboratories refusing to implement basic 
security precautions; DOE Secretaries and other officials ignoring 
repeated warnings of security problems; and bureaucratic obfuscation of 
the problems that meant that even the National Security Council and the 
President received inaccurate, misleading information. Although our 
main focus initially was terrorism and physical security, our concerns 
soon broadened to encompass other significant security deficiencies and 
the system's management problems.
    The Subcommittee, on a bipartisan basis, sought continuously to 
bring these problems to light, and to fix the underlying weaknesses, 
such as the lack of independent security oversight, that allowed 
problems to persist. This work required a sustained effort over several 
years, work made more difficult because of the recalcitrance of the 
contractors running the national laboratories. You should expect 
significant difficulties in arriving at a full understanding of the 
problems, particularly if, given your tight deadline, you are forced to 
rely on those contractors and government officials responsible for 
managing the laboratories over the last twenty years.
    The Subcommittee's work on this matter began in 1981 in response to 
efforts to undermine independent review of security threats. The 
Department of Energy's Assistant Secretary of Energy for Defense 
Programs had become concerned in 1979 about the level of security at 
the weapons laboratories. As recommended by the General Accounting 
Office (GAO) in 1977, and also the Inspector General, he established an 
independent, inter-agency group that reported directly to him on the 
adequacy of safeguards at these facilities. This program employed some 
of the best experts in the country in terrorism, sabotage, protection 
of classified material and related activities. This group found that 
the safeguards at the most critical facilities--which included Los 
Alamos--were in shambles while, at the same time, DOE's Office of 
Safeguards and Security was giving the facilities a clean bill of 
health.
    However, in 1981, when a new Administration took over, the 
Assistant Secretary was replaced by a high-ranking official from Los 
Alamos National Laboratory who immediately shut down the independent 
assessments program. In 1982, in a classified report to the 
Subcommittee, GAO strongly recommended (in part because DOE was 
submitting misleading reports to the National Security Council) the 
reinstitution of an independent assessment program which would report 
directly to the Under Secretary of the DOE. Two hearings by the 
Subcommittee in 1982 and 1983 focused on the organizational problems at 
DOE and the GAO recommendation. In 1983, the Committee adopted, with 
strong bipartisan support, an amendment to the DOE Defense 
Authorization bill establishing an independent Office of Safeguards 
Evaluation reporting directly to the Secretary. Unfortunately, the bill 
never received floor consideration.
    Attempts by the Subcommittee and others in 1983-84 to establish an 
independent evaluations office within DOE were turned down by the 
Secretary and the Assistant Secretary for Defense Programs, who wanted 
the evaluations program under his control. Independence was critical 
because, during the Subcommittee's work, top officials misled the 
Subcommittee and harassed a DOE whistleblower. In 1984, the 
Subcommittee held a hearing on the Department's attempts to strip the 
employee's security clearance and issued a report. The Department 
rewarded the harassers with promotions, bonuses and medals. In 1984, 
the Department also terminated an investigation by its Inspector 
General into management adequacy in the safeguards and security 
program.
    The Subcommittee also attempted to alert President Reagan to its 
concerns. In 1984, however, DOE officials told the President there was 
nothing to be concerned about. In January 1986, prior to his briefing 
by DOE on the status of safeguards and security, I wrote a letter to 
President Reagan listing general problem areas. These included: 
credibility of the inspection and evaluation program; inadequately 
trained guard forces; inadequate protection against insider threats; 
inability to track and recover special nuclear materials and weapons if 
they were stolen; inadequate protection of classified information; 
inverse reward and punishment system for the contractors; and lack of 
funding for safeguards and security upgrades. (A copy of that letter is 
enclosed.) In response, based on information provided by the national 
laboratories and DOE officials, Secretary of Energy Herrington wrote of 
``significant progress'' and ``improvements,'' and Admiral Poindexter 
said he was ``impressed with the progress being made.''
    The Subcommittee continued its work during President Bush's 
Administration. Among other matters, it looked at inadequate personnel 
security clearance practices at the laboratories where it was 
immediately clear that there were inadequate resources to do an 
effective job. That situation has not changed to this day. The 
Subcommittee also began to review the foreign visitors program--as did 
Senator Glenn, then chair of the Senate Governmental Affairs 
Committee--and the mysterious shutdown of an investigation into drug 
problems and property controls at Lawrence Livermore Laboratory.
    At the same time, Secretary Watkins' Safeguards and Security Task 
Force recommended establishing independent oversight functions which 
would report directly to the Under Secretary. Once again, the 
recommendation was not implemented, although Secretary Watkins did move 
the Office of Security Evaluation out from under Defense Programs.
    In 1991, the Subcommittee also reviewed the role the Department may 
have played in allowing Iraq to augment its nuclear capability. In May 
of 1989, DOE employees attempted to alert Secretary Watkins to the fact 
that Iraq was shopping for strategic nuclear technologies. They were 
not allowed to brief the Secretary. But in August of 1989, three Iraqi 
scientists attended the ``Ninth Symposium (International) on 
Detonation'' sponsored by the three weapons labs, the Army, Navy, and 
the Air Force. It was described by a DOE official as the place to be 
``if you were a potential nuclear weapons proliferant.'' At the time, 
DOE didn't even have a nonproliferation policy, and Secretary Watkins 
was not briefed on the Iraqi threat until May of 1990.
    In 1991 and 1992, the Subcommittee received six GAO reports 
critical of DOE's safeguards and security efforts. These covered 
weaknesses in correcting discovered deficiencies, incomplete safeguards 
and security plans, weak internal controls, unreliable data on remedial 
efforts, inadequate accountability for classified documents, and 
security force weaknesses. Two other GAO reports noted that even basic 
control measures for non-classified property were not in place at the 
Lawrence Livermore National Laboratory, nor was DOE oversight adequate.
    Subcommittee staff met with Secretary O'Leary and her senior staff 
in 1993 to outline these concerns. At the time of the Republican 
takeover of the House in January 1995, when my chairmanship ended, the 
problems had not gone away, and recent GAO reports find little, if any, 
improvements. In March of 1998, the U.S. Nuclear Command and Control 
System Support Staff, an independent, federal-level organization 
chartered by Presidential Directive to assess and monitor all 
equipment, facilities, communications, personnel and procedures used by 
the federal government in support of nuclear weapons operations, 
recommended once again a high-level, independent office to review 
safeguards and security at DOE.
    Many of us in the Congress have tried for years to address the 
chronic problems at DOE's national laboratories. You now have the 
opportunity to take an independent, comprehensive, and bipartisan look 
at these security weaknesses. Independence from those who have failed 
to solve these problems--which includes officials at DOE and 
representatives of the laboratory contractors who implement and 
establish policies at the labs as if they are academic researchers, not 
the guardians of our weapons secrets--is essential for your review to 
accomplish more than the prior reviews. Similarly, the independence of 
any future evaluations office will be essential to any lasting 
progress.
    Your review will not be easy work, but I stand ready to help.
    With every good wish.
            Sincerely,
                                            John D. Dingell
                                                     Ranking Member
Enclosures
cc: The Honorable Tom Bliley, Chairman
   Committee on Commerce

   The Honorable Bill Richardson, Secretary
   U.S. Department of Energy
                                 ______
                                 
                  U.S. House of Representatives    
           Subcommittee on Oversight and Investigations    
                           Committee on Energy and Commerce
                                                   January 28, 1986
The Honorable Ronald W. Reagan
President of the United States
The White House
Washington, D.C. 20500
    Dear Mr. President: The Subcommittee on Oversight and 
Investigations understands that you will soon be briefed by senior 
officials of the Department of Energy (DOE) on the adequacy of 
safeguards and security at DOE nuclear weapons facilities. The 
Subcommittee had been conducting an extensive review into the adequacy 
of DOE's safeguards and security program since mid-1982. On several 
occasions, I have written to you about the Subcommittee's concerns. The 
Subcommittee staff has also briefed the staff of the National Security 
Council and several members of the Council's staff have attended our 
closed hearings.
    While many improvements have been made, serious vulnerabilities 
remain. Compounding this problem are unresolved management issues and a 
lack of confidence in the Department's Inspection and Evaluation 
function which is supposed to provide independent, credible assurances 
as to the adequacy of safeguards and security. The Subcommittee will be 
holding a closed hearing in the near future concerning those issues and 
others. We will notify the National Security Council of the date of our 
upcoming hearing.
    You have said many tines that America will not be held hostage to 
terrorism. You advocate strong actions to curb this threat to the 
safety of not only the American people, but to the international 
community as well. While strong measures against terrorism are 
absolutely essential, we should also be doing the best job possible to 
protect our domestic nuclear weapons production facilities from the 
catastrophic consequences of a terrorist attack.
    Unfortunately, the Subcommittee has found that serious safeguards 
and security vulnerabilities continue to exist at some DOE nuclear 
weapons sites. The DOE's own internal inspection reports show that 
plutonium and highly enriched uranium are still highly vulnerable to 
theft and sabotage at these locations. In meetings with the 
Subcommittee staff, DOE officials seemed unaware of many of these 
vulnerabilities. The Subcommittee will continue its vigorous oversight 
over this critical program until the Department is doing an adequate 
job to protect the nation's nuclear weapons complex.
    The following are several generic problem areas that the committee 
believes must be resolved in order to have an effective safeguards and 
security program and which you may want to insure are addressed in your 
DOE briefing:

Credibility of the DOE's Inspection and Evaluation program--The 
        Subcommittee has evidence that Inspection and Evaluation 
        personnel altered ratings on inspections of safeguards and 
        security interests having important national security 
        significance. The rating system which is used is highly 
        misleading.
Guards forces are inadequately trained--In one exercise using 
        sophisticated testing apparatus known as MILES equipment, the 
        mock terrorists were able to steal plutonium because of a 
        bizarre sequence of blunders on the part of the guard force. 
        One machine gunner had not been trained to load his weapon. 
        Another guard's machine gun jammed and he was not able to unjam 
        it because he had not been trained adequately. A helicopter was 
        dispatched to chase the escaping terrorists. The guards, 
        however, were unable to fire on the terrorists because they had 
        forgotten to bring their weapons. The terrorists disappeared 
        into the woods. This is a contractor guard force that is paid 
        $40 million to guard this critical site. This same guard force 
        has lost M-16 rifles, has refused to allow guards to carry 
        loaded M-16 rifles and shotguns, and has even defied DOE 
        authority, yet received $762,400 in an award fee in 1985 for 
        ``excellent'' performance.
Inadequate protection against insider threat--During a recent exercise 
        at one of our most critical facilities, an insider was able to 
        smuggle a pistol, with a silencer, and explosives into the 
        facility to be used several days later in a successful attempt 
        to steal bomb parts containing plutonium.
Use of deadly force by security guards.--There is a conflict with state 
        law in some states over whether deadly force can be used to 
        prevent the theft of Special Nuclear Materials. The DOE has 
        been ``studying'' this matter since it was raised in our 
        September hearing. It is not resolved and, therefore, is a 
        continuing serious weakness.
Lack of coordination with the military, other Federal agencies and 
        local law enforcement for external assistance in the event of 
        an attack--At a subcommittee hearing in September 1982, concern 
        was raised over the failure of the DOE to provide for proper 
        outside assistance. This issue is far from resolved.
Inability to track and recover Special Nuclear Material and nuclear 
        weapons in the event they are stolen from the DOE.--The 
        Subcommittee believes major problems exist. In a recent test, 
        the mock terrorists successfully stole plutonium bomb parts and 
        disappeared. DOE officials admit they would have had a very low 
        probability of locating the terrorists or the bomb parts. To 
        our knowledge, this capability has never been adequately 
        tested.
The Department's inverse rewards and punishment system--The DOE 
        continues to promote and reward officials who have been 
        responsible for safeguards and security problems, including the 
        misleading of the President and the Congress, while holding 
        back the careers of those employees who have tried to improve 
        safeguards and security and to insure that the President and 
        Congress are properly advised of major safeguards and security 
        deficiencies.
Inadequate protection of classified information--The DOE has lost seven 
        sensitive TOP SECRET documents that, to our knowledge, have not 
        been located. Computer systems are vulnerable to compromising 
        highly sensitive, classified data in some DOE locations.
Reduction of funds for safeguards and security upgrades--While the DOE 
        has historically thrown money at its problems, there are 
        essential safeguards and security programs that must be funded 
        adequately. It is important that safeguards and security 
        effectiveness not be hurt due to lack of adequate funding.
    We both want adequate protection at these critical facilities. I 
hope that these concerns will be helpful in your efforts to insure that 
proper security throughout the nuclear weapons complex does indeed 
become a reality. Please inform the Subcommittee of your observations 
after receiving your briefing.
    The Subcommittee and its staff will be pleased to assist you and 
the National Security Council in any way we can.
            Sincerely,
                                  John D. Dingell, Chairman
                       Subcommittee on Oversight and Investigations
cc: Vice Admiral John M. Poindexter
   Assistant to the President for National Security Affairs

    Mr. Upton. Thank you, Mr. Dingell. And I thank both you, 
and the chairman of the committee, Mr. Bliley, our two senior 
members in the committee, for their insight and their 
participation this morning.
    We are here today to begin what I expect will be a series 
of hearings on the status of safeguards and security at the 
Department of Energy's nuclear weapons facilities, and in 
particular, its privately run laboratories, which conduct this 
Nation's most highly sensitive nuclear weapon-related research.
    We've all heard a great deal recently about the very 
serious allegations of Chinese espionage at DOE's nuclear 
weapons labs. What we'll hear today is that none of these 
troubling events should have come as any surprise to us, given 
the long history of significant deficiencies in various aspects 
of DOE's security apparatus.
    While a review of the written testimony for this hearing 
quickly reveals an incredible breadth of topics that can and 
should be explored, I must say that one particular area stands 
out in my mind--the fact that thousands of foreign scientists 
from countries such as China, Cuba, Iran, and Iraq, are 
permitted to visit our most sensitive weapon laboratories, and 
have fairly unrestricted exchanges with our scientists, 
including those working on matters that, while technically 
unclassified, are immensely useful for the weapons programs of 
foreign nations with potentially hostile intent toward the 
United States or its friends and allies around the world. China 
alone, sent nearly 1,500 scientists--including suspected 
intelligence agents--to our three most sensitive weapon labs 
during the time period of 1994-1996, and according to the 
testimony we will receive today, less the 2 percent of those 
Chinese scientists received any background checks at all by the 
Department of Energy.
    But my concern goes beyond the mere fact of whether the 
Department conducts an adequate background investigation on 
these foreign scientists. My concern goes to the very heart of 
this particular arrangement, and whether we are doing all that 
we should to give counter-intelligence training to those 
American scientists who must interact with foreign scientists, 
either here or abroad.
    Our witnesses today are from the GAO, and collectively, 
they have spent decades critically analyzing DOE's security 
systems and recommending much-needed improvements along the 
way. I am glad to have them here for the kickoff hearing on 
laboratory security, to give their perspective of some of the 
key factors underlying the general inability of the Department 
to get a firm and permanent handle on safeguards and security 
at its sensitive nuclear-weapons facilities.
    Our purpose today is mostly education--to help Members of 
Congress and the public put the current spy scandals in a 
broader, historical context. I should point out that the GAO is 
currently conducting, at this committee's request, a 
comprehensive update of its key security work--and the work of 
other experts within and outside the Department in this area--
and will report back to us sometime later this year with a more 
current assessment of the Department's safeguards and 
securities.
    I also wanted to compliment the witnesses for getting their 
joint testimony to the committee in a timely fashion--something 
that is, unfortunately, increasingly rare. Timely written 
testimony really does help the Congress do its job, and makes 
these hearing much more useful and effective for both members 
and the general public.
    And I said from the start, I would hope to continue this 
hearing in the not-to-distant future with other witnesses from 
the Department of Energy, in its laboratories, so that we can 
fully explore this important topic.
    I yield to my friend and the ranking member of this 
subcommittee, Mr. Klink from Pennsylvania.
    Mr. Klink. Mr. Chairman, I thank you. I just want to start 
off by associating myself with the concerns that you stated in 
your opening statement. I think one of the most difficult 
problems that this committee has had to face over the last 
several decades is making sure that the Department of Energy 
has effective safeguards and security programs at the nuclear 
weapons plants and laboratories.
    In the 1980's, the Oversight and Investigations 
Subcommittee held numerous classified and unclassified hearings 
to attempt to correct the often shocking lapses of security at 
the weapons facilities. Although improvements were made, it was 
slow and difficult work. Many of these changes involved 
physical security, in what we often refer to as gate, guards, 
and guns. But by the early 1990's, the challenge had changed, 
and meeting the challenge was much more difficult. It involved 
ensuring secure information systems, and training researchers 
on espionage tactics of persons who are seeking nuclear 
weapons, in an era of increased openness and non-proliferation, 
which encouraged scientific interaction.
    In the past, DOE management never provided the leadership, 
commitment, and resources necessary to address many of the 
problems. And the contractors who actually run the facilities 
often were recalcitrant. The labs, in particular, have been 
worlds unto themselves. The public and the media consider the 
lab employees, such as those at Los Alamos, to be DOE 
employees. They actually work for, and are accountable to, 
private contractors. For example, former DOE, under Secretary 
Charles Curtis, testified before the Senate Armed Service 
Committee recently that the labs refused to carry out his 
security directives. Security training for the scientists, who 
are the logical target for espionage, totaled 1 to 2 hours per 
year, and focused on physical security. The subcommittee staff 
was told just yesterday, of a deputy laboratory director, who, 
when confronted by DOE with a computer security problem, said 
he was willing to take the risk of penetration of the system, 
rather then improve the security.
    The new lab director at Los Alamos is attempting to change 
that. Last fall, he initiated security standdown days, during 
which different offices take the day off to focus on security 
issues. He also has required senior lab management to 
participate in the security training, which may be the first 
time that these people have appeared in such training. And a 
few weeks ago, Secretary Richardson shut down the computers in 
order for the scientists to attend a week's worth of training.
    Mr. Chairman, I just received, a few moments ago, a letter 
to Chairman Bliley from Secretary Richardson. The attachments 
to that letter were secret; we have not received the 
attachments. I assume that, at some point, that we will be able 
to share those with you. It says, when separated from the 
attachment, handle this document as unclassified; I'm referring 
to the letter, the unclassified portion. I would ask, Mr. 
Chairman, if the letter from Mr. Richardson, minus the secret 
added attachments, might be made a part of this record?
    Mr. Upton. Without objection.
    [The letter follows:]

                                    The Secretary of Energy
                                               Washington, DC 20585
The Honorable Tom Bliley
Chairman
Committee on Commerce
U.S. House of Representatives
Washington, DC 20515-6115
    Dear Chairman Bliley: Thank you for your correspondence of March 
23, 1999, regarding the Department of Energy's (DOE) Safeguards and 
Security Program. I want to assure you that the Department will 
cooperate fully with the Committee on Commerce examination of the 
overall status of the program. We will also cooperate in the broader 
review which you have requested be conducted by the General Accounting 
Office.
    In your letter you expressed concern over the long history of 
unresolved DOE security problems. In all candor, since assuming my 
responsibilities as Secretary of Energy, I have also become 
increasingly concerned over these longstanding problems and have 
initiated aggressive steps to correct them.
    Specifically, we have augmented security at field sites by 
deploying new technologies to safeguard special nuclear materials and 
weapons; worked with other agencies to train departmental protective 
forces; identified and developed more sophisticated detection and 
deterrent systems; and hired additional security personnel. 
Additionally, we are installing new explosive detection systems at 
selected nuclear facilities and upgrading our access control systems.
    In the area of information security, I recently announced a 
sweeping cyber-information security program. As part of this program, I 
also directed the stand-down of classified computer operations at three 
of our National Laboratories for twelve days, until I was assured that 
information processed on the systems are being adequately protected. 
This program also includes computer security and threat awareness 
training, physical modification to computer equipment to prevent 
classified information being moved to unclassified systems, new 
procedures and personnel security requirements for classified file 
transfers, and installation of automated monitoring systems to scan 
unclassified archives and e-mail. The program will also require more 
stringent application of need-to-know criteria and access policies, and 
initiation of technical measures to increase network security against 
insider threats. In addition, the three laboratories will rapidly 
complete unclassified network protection programs to prevent disclosure 
of unclassified but sensitive information. Finally, each lab will 
institute information security vulnerability analyses (red teams) and 
senior technical computer policy boards. Please find attached the Tri-
Lab INFOSEC Action Items Proposal submitted by the Laboratories for 
more details concerning this program.
    The Department has also requested a dramatic increase in its budget 
for information security. The additional funding will be used to help 
further secure classified and unclassified computer networks throughout 
the Department. The improvements will help strengthen fire walls, 
develop additional intrusion detection devices, and fund rapid response 
teams to work with the FBI to detect and track cyber intruders. The 
improvements will also allow for even greater security in the 
Department's unclassified e-mail systems and strengthen protection of 
the classified computer systems.
    The Department has also established the Fissile Materials Assurance 
Working Group (FMAWG), to assess needed areas of improvement and make 
recommendations regarding control, measurement and accountability of 
special nuclear materials. The FMAWG has been successful in identifying 
unmeasured materials and initiating actions to resolve discrepancies. 
The working group has also identified additional issues regarding the 
safeguarding of irradiated material and we are promulgating 
programmatic direction for implementation. In addition, the Department 
has developed a standard computerized nuclear materials accounting 
system that is being implemented at numerous field sites. Finally, we 
are developing new technologies for tamper-indicating devices and 
proposing pilot projects for field implementation.
    In your letter you also noted that you are troubled by DOE's 
continuing failure to implement expert recommendations made repeatedly 
over the last decade, and your concern regarding a lack of 
accountability concerning the Department's security problems.
    It is true that numerous external and internal reviews have raised 
issues concerning roles and responsibilities and accountability within 
the Department's Safeguards and Security Program. Accordingly, I have 
directed the DOE Security Council to examine our current structure, 
identify organizational impediments, and formulate a course for 
corrective action. Specific attention will be directed at policy 
development and implementation, program planning and direction, 
accountability, and oversight.
    In addition, the Department's site security planning process has 
been revised and considerably streamlined. Actions include issuing a 
revised security plan format and content guide and an Acceptance 
Criteria and Review Guide. Finally, DOE recently clarified the roles 
and responsibilities of the headquarters and field elements engaged in 
security planning.
    You also raised a concern over reports of unregulated exchanges and 
visits with foreign scientists in your letter. In this regard, 
considerable effort is underway to revamp our foreign visits and 
assignments program. Specifically, a new foreign visits policy has been 
prepared and is undergoing final review. An improved capability is 
being developed for documenting information about foreign visitors. In 
addition, security training is currently underway to educate personnel 
on intelligence gathering activities of foreign interests.
    In addition, I have taken a number of initiatives to strengthen the 
Department's Counterintelligence programs including increasing the 
budget to $40 million (from $2.6 in 1995). We have one of the country's 
foremost counterintelligence professionals, Ed Curran, a 35 year FBI 
veteran, leading our efforts in this area. Mr. Curran reports directly 
to me and the counterintelligence personnel assigned to our 
laboratories report directly to him, as well as to the Lab directors. 
Furthermore, we have initiated a Department-wide polygraph program to 
weed out potential counterintelligence problems. Passing a 
counterintelligence polygraph will now be a condition for entry into 
DOE's most sensitive programs. These initiatives are covered in greater 
detail in the Department's Counterintelligence Plan which is provided 
as an attachment.
    I believe the measures outlined above will significantly improve 
the Department's security posture in the near term as well as in the 
future. As an indicator of my determination to achieve concrete 
improvements, I have established a goal of satisfactory ratings for the 
three facilities rated marginal in the 1997-1998 Annual Report to the 
President on the Status of Safeguards and Security at Department of 
Energy Nuclear Weapons Facilities: Lawrence Livermore National 
Laboratory, Los Alamos National Laboratory, and the Transportation 
Safeguards Division. I assure you I intend to hold the management of 
these activities accountable for undertaking corrective actions and 
achieving satisfactory overall ratings by the end of calendar year 
1999.
    To facilitate committee staff interviews with laboratory directors 
and security officials within the Department, I have designated Mr. 
Joseph Mahaley, Director, Office of Security Affairs, as the primary 
point of contact. Mr. Mahaley has been instructed to assist committee 
staff personnel in the collection of all requested information and the 
scheduling of requested interviews. He may be reached at (202) 586-
6591.
    Again, I want to assure you the full support of the Department of 
Energy as the Congress and the General Accounting Office commence their 
respective reviews. I am fully committed to ensuring the protection of 
the national security assets entrusted to this Department. In the 
interim, should you have any other requests concerning this issue, 
please contact me or have your staff contact Mr. Mahaley.
            Yours sincerely,
                                                    Bill Richardson
Attachments

cc: The Honorable John D. Dingell, Ranking Member
   The Honorable Fred Upton, Chairman,
     Subcommittee on Oversight and Investigations
   The Honorable Ron Klink, Ranking Member,
     Subcommittee on Oversight and Investigations

    Mr. Klink. Let me just say that what Secretary Richardson 
has laid out is a good start, but I agree with the chairman. We 
have to continue to have questions about whether the site-
specific security and the safeguards plans up-to-date are going 
to be enough. We wonder if the Department has an accurate 
overall threat assessment, and site-specific vulnerability 
assessments, so that it is spending the money in the right 
place.
    Now, the President said he would like $40 million for 
counterintelligence at DOE. That is encouraging, but I might 
also add it represents an enormous budget increase, and we in 
Congress must make sure that this money can be used 
effectively. When the General Accounting Office tracked an 
earlier appropriation that Congress made specific for 
counterintelligence, it found that most of the money ended up 
in headquarters studies and excessive overhead charged by the 
individual facility. In fact, several facilities reduced the 
amount of money that they allocated to counterintelligence. We 
must make sure this does not happen in this instance. If we are 
going to come up with this money, we have to make sure it is 
used effectively, and I believe, Mr. Chairman, that the 
oversight investigation of this subcommittee can do that.
    The two labs implicated in the most recent allegations, 
took the most in overhead. We do not want that to happen again. 
We need to take a close look at this request, and make sure we 
are fixing problem, not just throwing money in it. Mr. 
Chairman, the subcommittee has traditionally had all the 
endurance it took to review safeguards and securities at these 
facilities, long after the press moves on. I look forward to 
participating in the oversight of these weapons facilities and 
labs by this subcommittee, and I congratulate you on your 
leadership and look forward to working with you in a bipartisan 
fashion, so that we make sure that the security is as much as 
it can be at these facilities.
    [The prepared statement of Hon. Ron Klink follows:]
Prepared Statement of Hon. Ron Klink, a Representative in Congress from 
                       the State of Pennsylvania
    One of the most difficult problems this Committee has faced over 
the last several decades is making sure that the Department of Energy 
has an effective safeguards and securities program at its nuclear 
weapons plants and laboratories. In the 1980s, the Oversight & 
Investigations Subcommittee held numerous unclassified and classified 
hearings to attempt to correct the often shocking lapses of security at 
the weapons facilities. Although improvements were made, it was slow 
and difficult work. Many of these changes involved physical security, 
or what is often called ``gates, guards and guns.'' By the early 1990s, 
however, the challenge had changed and meeting it was much more 
difficult. It involved assuring secure information systems and training 
researchers on the espionage tactics of persons seeking nuclear weapons 
in an era of openness and nonproliferation which encouraged scientific 
interactions.
    In the past, DOE management never provided the leadership 
commitment and resources necessary to address many of the problems, and 
the contractors who actually run the facilities were often 
recalcitrant. The labs, in particular, have been worlds unto 
themselves. The public and the media consider the lab employees, such 
as those at Los Alamos, to be DOE employees. They actually work for and 
are accountable to private contractors. For example, former DOE 
undersecretary Charles Curtis testified before the Senate Armed 
Services Committee recently that the labs refused to carry out his 
security directives. Security training for the scientists, who are the 
logical target for espionage, totaled 1-2 hours per year and focused on 
physical security.
    The Subcommittee staff was just told yesterday of a deputy 
laboratory director who, when confronted by DOE with a computer 
security problem, said he was willing to take the risk of penetration 
of the system rather than improve security. The new lab director at Los 
Alamos is attempting to change that. Last fall, he initiated security 
``stand-down'' days during which different offices take a day off to 
focus on security issues. He also has required senior lab management to 
participate in the security training which may be the first time these 
people have appeared at such a training. And a few weeks ago, Secretary 
Richardson shut down the computers and ordered the scientists to attend 
a week's worth of training.
    This is a good start, but we still have questions about whether the 
site-specific security and safeguards plans are up to date. We wonder 
if the Department has an accurate overall threat assessment and site-
specific vulnerability assessments so that it is spending its money in 
the right place.
    The President says he would like $40 million for counter-
intelligence at DOE. This is encouraging, but it also represents an 
enormous budget increase. We in Congress must make sure that this money 
can be used effectively. When the General Accounting Office tracked an 
earlier appropriation Congress made specifically for counter-
intelligence, it found that most of it ended up in headquarters studies 
and excessive overhead charges by the individual facilities. Several 
reduced the amount of money they had allocated to counter-intelligence. 
The two labs implicated in the most recent allegations took the most in 
overhead. We don't want that to happen again. We need to take a close 
look at this request to make sure that we are fixing a problem, not 
just throwing money at it. Mr. Chairman, this Subcommittee has 
traditionally has had the endurance to review safeguards and security 
at these facilities after the press has moved on. I look forward to 
participating in the continuation of the oversight of the weapons 
facilities labs by the Subcommittee.

    Mr. Upton. Thank you, Mr. Klink.
    A valuable member of this committee, though not a member of 
the subcommittee, is Heather Wilson, who, of course, represents 
parts of New Mexico. She has asked to sit in on the panel 
today, and with unanimous consent, I would like to ask that she 
might give an opening statement and participate as she can, 
following other members of this subcommittee, with questions 
and answers. Mrs. Wilson.
    Mrs. Wilson. Thank you, Mr. Chairman. I particularly 
appreciate your willingness to let me participate and observe 
in this process, as it is something that is very important to 
me, and very important to the country.
    We should not be surprised that foreign governments have 
intelligence programs and intelligence collection programs 
targeted at our nuclear weapons facilities and our other 
military programs. The question is, whether we have adequate 
and effective counterintelligence programs and security at our 
national laboratories, our military bases, and even at our 
higher headquarters, as far the Department of Defense, or as 
far as the National Security Council, and other places, where 
we might target intelligence efforts.
    I think that we need to consider the information about 
national security and the national laboratories in context. 
That this is not about what exists at a point in time, whether 
that's 1988 or 1997, or today, but whether there is a system of 
security and counterintelligence, over time and place, to 
constantly assess these things. It's not about the procedures 
today; it is about the system as a whole.
    I believe that this committee, and as a country, we face 
two major challenges with respect to the review we are 
undertaking. First is to respond comprehensively, as a Nation, 
to meet the challenges posed by foreign governments who are 
trying to collect information about our military and nuclear 
weapons programs. The second is to avoid simplistic solutions 
that allow all of us to feel good, but which may not achieve 
the ends that we all want to achieve. And so we need to look at 
the substance. We need to avoid the tendency to wax rhetorical 
or give lip service, whether that is from the Department of 
Energy, the labs, those who testify before us today, or even 
Members of Congress. Let's get serious about this problem, and 
serious about the solutions.
    It is easy to ask the questions and criticize, having 
before, served in a capacity where I sat at the desk responding 
to questions and criticisms; it is a lot harder to implement 
real change. So let's get down to what kinds of real changes 
need to be implemented. And let us also make sure that we are 
focusing on the whole of the problem. In trying to explain what 
I mean by this, I was trying to think of how to illustrate 
this. My kids like to play with flashlights in the dark. And if 
you point the flashlights, you are focused on what is in the 
beam, and the scariest things are still in the dark. We would 
make a mistake if we focus on just what we see, or what we have 
paid attention to, in the past, and ignore the things that may 
still be in the dark. That is our challenge today.
    Thank you, Mr. Chairman.
    [Additional statements submitted for the record follow:]
   Prepared Statement of Hon. Fred Upton, Chairman, Subcommittee on 
                      Oversight and Investigations
    We're here today to begin what I expect will be a series of 
hearings on the status of safeguards and security at the Department of 
Energy's nuclear weapon facilities, and in particular, its privately-
run laboratories, which conduct this Nation's most highly sensitive, 
nuclear weapon-related research.
    We've all heard a great deal recently about the very serious 
allegations of Chinese espionage at DOE's nuclear weapon labs. What 
we'll hear today is that none of these troubling events should have 
come as any surprise to us, given the long history of significant 
deficiencies in various aspects of DOE's security apparatus.
    While a review of the written testimony for this hearing quickly 
reveals an incredible breadth of topics that can and should be 
explored, I must say that one particular area stands out in my mind--
the fact that thousands of foreign scientists from countries such as 
China, Cuba, Iran, and Iraq are permitted to visit our most sensitive 
weapon laboratories and have fairly unrestricted exchanges with our 
scientists--including those working on matters that, while technically 
unclassified, are immensely useful to the weapon programs of foreign 
nations with potentially hostile intent towards the United States or 
its friends and allies around the world. China alone sent almost 1,500 
scientists--including suspected intelligence agents--to our three most 
sensitive weapon labs during the time period 1994-1996 and, according 
to the testimony we've received today, less than two percent of those 
Chinese scientists received any background checks by the Department.
    But my concern goes beyond the mere fact of whether the Department 
conducts an adequate background investigation on these foreign 
scientists. My concern goes to the very heart of this peculiar 
arrangement, and whether we are doing all that we should to give 
counter-intelligence training to those American scientists who must 
interact with foreign scientists, either here or abroad.
    Our witnesses today are from the General Accounting Office and, 
collectively, they have spent decades critically analyzing DOE's 
security systems and recommending much-needed improvements along the 
way. I'm glad to have them here for this kick-off hearing on laboratory 
security, to give their perspective on some of the key factors 
underlying the general inability of the Department to get a firm and 
permanent handle on safeguards and security at its sensitive nuclear-
weapon facilities.
    Our purpose today is mostly educational--to help Members of 
Congress and the public put the current spy scandals in a broader, 
historical context. I should point out that the GAO currently is 
conducting, at this Committee's request, a comprehensive update of its 
key security work--and the work of other experts within and outside of 
the Department in this area--and will report back to us sometime later 
this year with a more current assessment of the Department's safeguards 
and security.
    I also want to compliment the witnesses for getting their joint 
testimony to the Committee in a timely fashion--something that is, 
unfortunately, increasingly rare in my opinion. Timely written 
testimony really does help the Congress do its job, and makes these 
hearings much more useful and effective for both Members and the 
general public.
    As I said at the start, I hope to continue this hearing in the not-
too-distant future with other witnesses from the Department of Energy 
and its laboratories, so that we can more fully explore this important 
topic.
                                 ______
                                 
  Prepared Statement of Hon. Gene Green, a Representative in Congress 
                        from the State of Texas
    Thank you, Mr. Chairman, for holding this hearing. Security in our 
nation's nuclear laboratories is a subject that we should take very 
seriously. We should make every effort to ensure that we are not 
contributing to the spread of technology that would allow the 
construction of nuclear weapons.
    Mr. Chairman, we are here today to talk about the security problems 
that exist in some of our nation's foremost nuclear research 
laboratories. This is not a new problem; in fact, it has existed for 
many years.
    Even though I have only served for three years on the Commerce 
Committee, it is my understanding that this Committee has done a great 
deal of work in the past 20 years to uncover and fix these problems.
    I applaud the past work of this committee, and especially the 
ranking member, for that work and I hope that we can continue to work 
in a bipartisan fashion to improve the security that exists at these 
facilities.
    However, Mr. Chairman, I do have some concerns about this hearing. 
While I understand the desire of the majority to establish a historical 
timeline and examine the conduct of the Department of Energy over that 
time period, I feel that the Department should have been represented at 
this hearing.
    The Department of Energy deserves the opportunity to answer the 
testimony that we will be hearing from the GAO. I am disappointed that 
they will not receive that opportunity before this committee today.
    Still, I look forward to hearing the comments of the GAO on the 
security arrangements, and I hope that this hearing will lead to the 
improvements that are necessary to increase the level of security in 
our nation's facilities.
    Again, Mr. Chairman, thank you for holding this hearing.
                                 ______
                                 
Prepared Statement of Hon. Diana DeGette, a Representative in Congress 
                       from the State of Colorado
    Thank you Mr. Chairman and thank you Ranking Member Klink. I'm glad 
to see the issue of DoE security is being addressed by this 
Subcommittee.
    Just northwest of downtown Denver, Colorado is the former 
Department of Energy nuclear weapons facility Rocky Flats. Today this 
facility no longer produces weapons components, it has a new mission: 
environmental cleanup and closure. But part of that new mission 
includes managing the stockpile of nuclear materials that remained 
behind when weapons production was suspended in 1989. While recent 
attention has been given to safeguarding the technical ``know-how'' of 
weapons design, just as critical to the non-proliferation of nuclear 
weapons is the safeguarding and accounting of nuclear materials, such 
as the material at Rocky Flats. We also need assurance that Rocky Flats 
is protected against terrorism, domestic or international. While I 
recognize the nature of certain security precautions may be sensitive 
or classified, my constituents must be assured that Rocky Flats is 
beyond the reach of a Timothy McVeigh or an Osama bin-Laden. I look 
forward to hearing what GAO's findings have been regarding physical 
security at the Rocky Flats and other facilities.
    I thank the GAO representatives for being here today to offer their 
perspective, and I thank the Subcommittee for addressing this important 
matter. I yield back the balance of my time.

    Mr. Upton. Thank you. To the witnesses and others, I want 
you to know that all of us on this subcommittee are on other 
subcommittees, and, in fact, there is a markup in the Health 
and Environment Subcommittee, of which I am also a member, and 
I hope that I do not get called to go downstairs. But that's 
where a number of our members are, and they will be coming 
back, hopefully, when that is over. But I would ask unanimous 
consent that all members of the subcommittee have a chance to 
put in an opening statement, and without objection, that will 
be so done.
    We have a longstanding tradition, as you know, taking 
testimony under oath, and if all of you would rise and raise 
your right hand.
    [Witnesses sworn.]
    You are now sworn in. Generally the rule is that folks have 
testified for 5 minutes, but because of the sensitivity and the 
importance of this, and knowing that you are the only panel 
before us, we are going to waive that rule. All of your 
testimony will be made part of the record, and we look forward 
to listening. The time is yours, Mr. Rezendes.

 TESTIMONY OF VICTOR S. REZENDES, DIRECTOR, ENERGY, RESOURCES, 
  AND SCIENCE ISSUES; ACCOMPANIED BY JOHN SCHULZE, ASSISTANT 
   DIRECTOR, ENERGY, RESOURCES, AND SCIENCE ISSUES; WILLIAM 
  FENZEL, ASSISTANT DIRECTOR, ENERGY, RESOURCES, AND SCIENCE 
 ISSUES; AND GARY BOSS, ASSISTANT DIRECTOR, ENERGY, RESOURCES, 
         AND SCIENCE ISSUES, GENERAL ACCOUNTING OFFICE

    Mr. Rezendes. Thank you, Mr. Chairman. Over the past 20 
years, we have performed numerous reviews of security that, 
unfortunately, Mr. Chairman, show serious weaknesses, that have 
led to loss of classified or sensitive information. While DOE 
has often agreed to take corrective action, implementation has 
often not been successful, and problems re-occur over the 
years. Let me highlight some of the problems. But first let me 
deal with foreign visitors.
    In 1988, we reported that significant weaknesses exist in 
DOE controls over foreign visitors. Required background checks 
were performed for fewer than 10 percent of the visitors from 
sensitive countries. As a result, visitors with questionable 
backgrounds, including connections with foreign intelligence 
services, obtained access to laboratories without DOE's 
knowledge. Those in the laboratories were not always aware of 
those topics that DOE considered sensitive. Visits were 
occurring without authorized approvals; security plans 
detailing how the visits would be controlled were not prepared, 
and DOE was not notified of all the visits. Although DOE agreed 
to take corrective action, we found that at the same time the 
number of visitors continued to grow. The annual number of 
foreign visitors increased nearly 70 percent, to about 6,400 
per year. Those from sensitive countries increased 250 percent.
    We again examined controls over foreign visitors 9 years 
later, and found that the problems persisted. The revised 
procedures for obtaining background checks had not been 
effectively implemented at two facilities. Fewer background 
checks were being conducted with only 5 percent of the visitors 
from sensitive countries, and less than 2 percent of those from 
China, receiving background checks. We also found that visits 
were still occurring that involved many sensitive topics, 
without DOE's knowledge. Security controls over foreign 
visitors did not preclude them from obtaining access to 
sensitive information. Los Alamos allowed unescorted, after-
hours access to controlled areas to preserve, as one official 
called it, ``an open campus atmosphere.'' Additionally, we 
found that counterintelligence programs lacked key data on the 
threats to the facility, and how well the facilities were 
protected from those threats.
    Let me switch now to information security. This area 
involved protecting classified information from inappropriate 
disclosure. In the early 1990's, we found problems that could 
involve a loss of classified information. Lawrence Livermore, a 
national laboratory, was unable to locate 10,000 secret 
documents. Although the laboratory's controls were evaluated 
annually, the evaluations were limited in scope, and failed to 
identify the documents we were missing.
    In prior years, we reported that DOE had internal controls 
over unclassified, but still sensitive information that could 
assist foreign nuclear weapons programs. Specifically, we found 
countries like, China, India, Iraq, Pakistan, routinely 
obtained re-processing and nuclear weapons related information 
directly from the Department of Information. As recently as 
February of this year, we reported on information security 
problems in DOE's initiative for proliferation prevention with 
Russia. Under this initiative, DOE has provided defense-related 
information to Russian weapon scientists. We reviewed 79 of 
these projects--they were funded under DOE's programs--and 
found 9 to be dual-use projects.
    Another security weakness that is involved is physical 
security controls; in essence, this is the guns, guards, and 
gates at DOE facilities. In the 1990's we reported that 
security personnel were unable to demonstrate basic skills, 
such as handcuffing, searching, and arresting intruders, as 
well as shooting accurately. We found at Los Alamos 78 percent 
of the security force failed to pass required skill tests.
    The problems we identified were not only with keeping 
threats out of the facility, but also with keeping property in. 
For example, we reported that Lawrence Livermore could not 
locate 16 percent of its inventory of government property. When 
we returned a year later to re-visit this problem, we found 
that only 3 percent of the missing property had been found. 
Moreover, the laboratory's accounting controls for this 
equipment were weaker than they were in the previous year.
    The next area involves personnel security issues, which is 
intended to provide assurance that personnel with access to 
classified information, are trustworthy. We found numerous 
problems in this area, dating back to the 1980's. Clearance 
files at two offices contained over 4,000 clearances that 
should have been terminated, and over 600 employees at Los 
Alamos had clearance badges, but did not have active clearances 
in their files. In addition, some DOE contractors were not 
verifying information on prospective employees, such as credit 
and law enforcement records.
    The last area of concern related to material 
accountability, which concerns the protection of special 
nuclear materials, such as enriched uranium and plutonium. In 
1991, we found that DOE facilities were not properly measuring, 
storing, and verifying quantities of nuclear materials. Without 
proper accounting for this material, missing quantities are 
difficult to detect. Over the years, DOE has been unable to 
account for substantial amounts of enriched uranium and 
plutonium.
    We also reported on DOE's efforts to develop a nuclear 
tracking system for monitoring nuclear materials exported to 
foreign countries. We reported that the existing system was not 
able to track all exported nuclear materials. Moreover, DOE had 
not adequately planned a replacement system. Our concerns were 
well justified. Within 3 months after the new tracking system 
began operating, the technical committee overseeing this system 
concluded that the system faced a high probability of failure, 
and the system should not be used.
    As you can see, Mr. Chairman, our work over the years has 
identified a wide variety of specific security problems at 
DOE's facilities. While each individual security problem is a 
concern, when looked at collectively over an extended period of 
time, a more serious situation becomes apparent, that stems 
from systemic causes.
    First, there has been a longstanding lack of attention and 
priority given to security matters by DOE managers, and their 
contractors. For example, in 1988, in response to our foreign 
visitors report, DOE brought in FBI personnel to assist its the 
counterintelligence program. However, the FBI eventually 
withdrew its personnel, because of resistance within DOE to 
implement any of the measures the FBI staff believed were 
necessary to improve security. We know that, in response to the 
current concerns, the FBI is again being brought into DOE to 
head up the counterintelligence program.
    As far back as 1980, we reported that funding for security 
had low priority and little visibility. In 1992, we reported 
that safeguard and security plans, and vulnerability 
assessments for many of DOE's most sensitive facilities were 
almost 2 years overdue because, in part, DOE had not provided 
sufficient staff to get the job done. Similarly, security 
problems identified by DOE's own internal security staff often 
go unresolved, even today.
    For example, issues relating to inadequate separation 
between classified and unclassified computer networks were 
identified in Los Alamos in 1988, in 1992, and again in 1994. 
This problem was discovered again at Los Alamos just last year. 
The Secretary of Energy ordered a shutdown of classified 
computers at these, the three defense laboratories, and 
directed the staff to attend computer security training.
    We reported, in 1997, that DOE had not developed measures 
for evaluating counterintelligence at its laboratories. The low 
priority given security matters is underscored in how DOE 
manages its contract with the University of California, both at 
Los Alamos and Livermore. Performance measures for 
counterintelligence activities are still not in its contracts 
with these two laboratories. We recommended, as far back as 
1990, that DOE should withhold a contractor's fee for failing 
to fix security problems on a timely basis. DOE just recently 
announced a new policy which would allow it to do just that.
    In the final analysis, security problems reflect a lack of 
accountability. Security problems have languished for years 
without resolution or repercussion to those responsible. The 
well-documented history of security lapses shows that DOE is 
not holding its contractors accountable, and DOE leadership is 
not holding its program managers accountable for making sure 
contractors do their job. Achieving accountability in DOE is 
made more difficult by its complex organizational structure. 
The FBI, which examined DOE's counterintelligence activities, 
noted that there is a gap between authority and responsibility, 
particularly when national interests compete with the 
specialized interest of the academic or corporate management 
that operates the laboratories. Citing the laboratories 
autonomy, granted by DOE, the FBI found that this autonomy made 
national guidance, oversight, and accountability of the 
laboratories' counterintelligence programs arduous and 
inefficient. Other groups have also reported accountability 
problems at DOE from unclear lines of command.
    We believe these organizational weaknesses are a major 
reason why DOE has been unable to develop long-term solutions 
to re-occurring problems. Continued vigilance, as well as more 
sophisticated security strategies, will be needed to meet the 
threats that exist today. Mr. Chairman, we are concerned that, 
given DOE's past track record, they may not be up to the 
challenge without congressional oversight to hold them 
accountable for achieving specific goals, and for objectives in 
security reform. Thank you.
    [The prepared statement of Victor S. Rezendes follows:]
 Prepared Statement of Victor S. Rezendes, Director, Energy, Resources 
  and Science Issues, Resources, Community, and Economic Development 
           Division, United States General Accounting Office
    Mr. Chairman and Members of the Subcommittee: We are pleased to be 
here today to discuss our past work involving security at the 
Department of Energy's (DOE) facilities. These facilities, particularly 
its nuclear weapons design laboratories and its nuclear material and 
weapons production facilities, have long been viewed by DOE and the FBI 
as targets of espionage and other threats. Recent revelations of the 
possible loss of nuclear weapons design and other classified 
information to foreign countries have focused renewed attention on the 
effectiveness of security at DOE's facilities and have prompted 
concerns at high levels in the government, including the Administration 
and the Congress.
    To protect its facilities from security threats, DOE created a 
multifaceted, defense-in-depth security strategy. Under such a 
strategy, various lines of defense are used to protect classified and 
sensitive information, nuclear materials, and equipment. Over the last 
20 years, we have performed numerous reviews of security that, 
unfortunately, Mr. Chairman, show serious weaknesses in many of these 
lines of defense that have lead to losses of classified or sensitive 
information and technology.
    In summary, Mr. Chairman, our work has identified security-related 
problems with controlling foreign visitors, protecting classified and 
sensitive information, maintaining physical security over facilities 
and property, ensuring the trustworthiness of employees, and accounting 
for nuclear materials. These problems include:

<bullet> Ineffective controls over foreign visitors to DOE's most 
        sensitive facilities. We found in 1988, and again in 1997, that 
        foreign visitors are allowed into DOE's nuclear weapons design 
        laboratories with few background checks and inadequate controls 
        over the topics discussed, and that other security procedures, 
        such as access controls, to mitigate the risks from these 
        visits may not be fully effective. In addition, 
        counterintelligence programs to guard against foreign and 
        industrial espionage activities received little priority and 
        attention.
<bullet> Weaknesses in efforts to control and protect classified and 
        sensitive information. We found one instance where a facility 
        could not account for 10,000 classified documents. In 1987, 
        1989, and 1991, we reported that foreign countries routinely 
        obtained unclassified but sensitive information that could 
        assist their nuclear weapons capability. Earlier this year, we 
        reported that under its program with Russia to prevent 
        proliferation, DOE may have provided Russian scientists with 
        dual-use defense-related information that could negatively 
        affect national security.
<bullet> Lax physical security controls, such as security personnel and 
        fences, to protect facilities and property. Our reviews of 
        security personnel have shown that these personnel have been 
        unable to demonstrate basic skills such as arresting intruders 
        or shooting accurately; at one facility, 78 percent of the 
        security personnel failed a test of required skills. 
        Furthermore, we found that equipment and property worth 
        millions of dollars was missing at some facilities.
<bullet> Ineffective management of personnel security clearance 
        programs has been a problem since the early 1980s. Backlogs 
        were occurring in conducting security investigations, and later 
        when the backlogs were reduced, we found some contractors were 
        not verifying information on prospective employees.
<bullet> Weaknesses in DOE's ability to track and control nuclear 
        materials. We reported in 1980 and again in 1991 that, at some 
        facilities, DOE was not properly, measuring, storing, and 
        verifying quantities of nuclear materials. Also, DOE was not 
        able to track all nuclear material sent overseas for research 
        and other purposes.
    The recent revelations about espionage bring to light how ingrained 
security problems are at DOE. Although each individual security problem 
is a concern, when these problems are looked at collectively over time, 
a more serious situation becomes apparent. While a number of 
investigations are currently underway to determine the status of these 
security problems, we have found that DOE has often agreed to take 
corrective action but the implementation has not been successful and 
the problems reoccur. In our view, there are two overall systemic 
causes for this situation. First, DOE managers and contractors have 
shown a lack of attention and/or priority to security matters. Second, 
and probably most importantly, there is a serious lack of 
accountability at DOE. Efforts to address security problems have 
languished for years without resolution or repercussions to those 
organizations responsible.
    Security in today's environment is even more challenging, given the 
greater openness that now exists at DOE's facilities and the 
international cooperation associated with some of DOE's research. Even 
when more stringent security measures were in place than there are 
today, such as those in effect during the development of the first 
atomic bombs, problems have arisen and secrets can be, and were, lost. 
Consequently, continual vigilance, as well as more sophisticated 
security strategies, will be needed to meet the threats that exist 
today. Mr. Chairman, we are concerned that, given DOE's past record, it 
may not be up to the challenge without congressional oversight to hold 
it accountable for achieving specific goals and objectives for security 
reform. Therefore, we are pleased that the Committee has taken a 
special interest in DOE's security problems and we have already begun 
to work on the Committee's request to have us assess the current status 
of these security problems.
                               background
    DOE has numerous contractor-operated facilities that carry out the 
programs and missions of the Department. Much of the work conducted at 
these facilities is unclassified and nonsensitive and can be, and is, 
openly discussed and shared with researchers and others throughout the 
world. However, DOE's facilities also conduct some of the nation's most 
sensitive activities, including designing, producing, and maintaining 
the nation's nuclear weapons; conducting efforts for other military or 
national security applications; and performing research and development 
in advanced technologies for potential defense and commercial 
applications.
    Security concerns and problems have existed since these facilities 
were created. The Los Alamos National Laboratory in New Mexico 
developed the first nuclear weapons during the Manhattan Project in the 
1940s; however, it was also the target of espionage during that decade 
as the then Soviet Union obtained key nuclear weapons information from 
the laboratory. In the 1960s, significant amounts of highly enriched 
uranium--a key nuclear weapons material--was discovered to be missing 
from a private facility under the jurisdiction of the Atomic Energy 
Commission, a predecessor to DOE. It is widely believed that in the 
early 1980s, China obtained information on neutron bomb design from the 
Lawrence Livermore National Laboratory in California.
    Most recently, two incidents have occurred at Los Alamos in which 
laboratory employees are believed to have provided classified 
information to China. In one situation, a laboratory employee admitted 
to providing China classified information on a technology used to 
conduct nuclear weapons development and testing. In the other 
situation, which occurred earlier this year, DOE disclosed that it had 
evidence that indicated China obtained information on this nation's 
most advanced nuclear warhead and had used that information to develop 
its own smaller, more deliverable nuclear weapons. A laboratory 
employee has been fired as a result of recent investigations into how 
this information was obtained by China; however, no charges have yet 
been filled.
               problems noted in critical security areas
    While the recent incidents at Los Alamos have been receiving 
national attention, these are only the most recent examples of problems 
with DOE's security systems. For nearly 20 years, we have issued 
numerous reports on a wide range of DOE security programs designed to 
protect nuclear weapons-related and other sensitive information and 
material. These reports have included nearly 50 recommendations for 
improving programs for controlling foreign visitor access, protecting 
classified and sensitive information, maintaining physical security 
over facilities and property, ensuring the trustworthiness of 
employees, and accounting for nuclear materials. While DOE has often 
agreed to take corrective actions, we have found that the 
implementation has often not been successful and that problems recur 
over the years. I would like to highlight some of the security problems 
identified in these reports.
Inadeguate Controls Over Foreign Visitors
    Thousands of foreign nationals visit DOE facilities each year, 
including the three laboratories--Lawrence Livermore National 
Laboratory in California and the Los Alamos National Laboratory and the 
Sandia National Laboratories in New Mexico\1\--that are responsible for 
designing and maintaining the nation's nuclear weapons. These visits 
occur to stimulate the exchange of ideas, promote cooperation, and 
enhance research efforts in unclassified areas and subjects. However, 
allowing foreign nationals into the weapons laboratories is not without 
risk, as this allows foreign nationals direct and possibly long-term 
access to employees with knowledge of nuclear weapons and other 
sensitive information. Consequently, DOE has had procedures to control 
these visits as well as other lines of defense--such as access controls 
and counterintelligence programs--to protect its information and 
technology from loss to foreign visitors.
---------------------------------------------------------------------------
    \1\ Sandia also has a facility adjacent to the Lawrence Livermore 
facility in California.
---------------------------------------------------------------------------
    In 1988, we reported that significant weaknesses exist in DOE's 
controls over foreign visitors to these laboratories.\2\ First, 
required background checks were performed for fewer than 10 percent of 
the visitors from sensitive countries prior to their visit.\3\ As a 
result, visitors with questionable backgrounds--including connections 
with foreign intelligence services--obtained access to the laboratories 
without DOE's knowledge. Second, DOE and the laboratories were not 
always aware of visits that involved topics, such as isotope separation 
and inertial confinement fusion, that DOE considers sensitive because 
they have the potential to enhance nuclear weapons capability, lead to 
proliferation, or reveal other advanced technologies. Third, internal 
controls over the foreign visitor program were ineffective. Visits were 
occurring without authorized approvals, security plans detailing how 
the visits would be controlled were not prepared, and DOE was not 
notified of visits. Because DOE was not notified of the visits, it was 
unaware of the extent of foreign visitors to the laboratories.
---------------------------------------------------------------------------
    \2\ Nuclear Nonproliferation: Major Weaknesses in Foreign Visitor 
Controls at Weapons Laboratories (GAO/RCED-89-31, Oct. 11, 1988).
    \3\ DOE's definition of sensitive countries has changed over time. 
Currently, DOE views certain countries as sensitive because of concerns 
about national security, nuclear nonproliferation, regional 
instability, or support of terrorism.
---------------------------------------------------------------------------
    At that time, DOE acknowledged problems with its controls over 
foreign visitors and subsequently set out to resolve these problems. 
Among other things, DOE revised its foreign visitor controls, expanded 
background check requirements, established an Office of 
Counterintelligence at DOE headquarters, and created an integrated 
computer network for obtaining and disseminating data on foreign 
visitors. However, at the same time the number of foreign visitors 
continued to grow. Between the period of the late-1980s to the mid-
1990s, the annual number of foreign visitors increased from about 3,800 
to 6,400 per year--nearly 70 percent--and those from sensitive 
countries increased from about 500 to over 1,800 per year--more than 
250 percent.
    We again examined the controls over foreign visitors and reported 
in 1997 that most of the problems with these controls persist.\4\ We 
found that revised procedures for obtaining background checks had not 
been effectively implemented and that at two facilities, background 
checks were being conducted on only 5 percent of visitors from all 
sensitive countries and on less than 2 percent of the visitors from 
China. We also found that visits were still occurring that may involve 
sensitive topics without DOE's knowledge. Moreover, other lines of 
defense were not working effectively. Security controls over foreign 
visitors did not preclude them from obtaining access to sensitive 
information. For example, Los Alamos allowed unescorted after-hours 
access to controlled areas to preserve what one official described as 
an open ``campus atmosphere.'' Evaluations of the controls in areas 
most frequented by foreign visitors had not been conducted.
---------------------------------------------------------------------------
    \4\ Department of Energy: DOE Needs to Improve Controls Over 
Foreign Visitors to Weapons Laboratories (GAO/RCED-97-229, Sept. 25, 
1997).
---------------------------------------------------------------------------
    Additionally, we found that the counterintelligence programs for 
mitigating the threat posed by foreign visitors needed improvements. 
These programs lacked comprehensive threat assessments, which are 
needed to identify the threats against DOE and the facilities most at 
risk, and lacked performance measures to gauge the effectiveness of 
these programs in neutralizing or deterring foreign espionage efforts. 
Without these tools, the counterintelligence programs lacked key data 
on threats to the facilities and on how well the facilities were 
protected against these threats.
Information Security
    Information security involves protecting classified and/or 
sensitive information from inappropriate disclosure. We have found 
problems with information security at the nuclear weapons laboratories 
that could involve the loss of classified information and/or assist 
foreign nuclear weapons capability. For example, in February 1991, we 
reported that the Lawrence Livermore National Laboratory was unable to 
locate or determine the disposition of over 12,000 secret documents.\5\ 
These documents covered a wide range of topics, including nuclear 
weapons design. The laboratory conducted a search and located about 
2,000 of these documents but did not conduct an assessment of the 
potential that the documents still missing compromised national 
security. We also found that DOE had not provided adequate oversight of 
the laboratory's classified document control program. Although the 
laboratory's classified document controls were evaluated annually, the 
evaluations were limited in scope and failed to identify that documents 
were missing.
---------------------------------------------------------------------------
    \5\ Nuclear Security: Accountability for Livermore's Secret 
Classified Documents Is Inadequate (GAO/RCED-91-65, Feb. 8, 1991).
---------------------------------------------------------------------------
    In 1987 and 1989, we reported that DOE had inadequate controls over 
unclassified but sensitive information that could assist foreign 
nuclear weapons programs.\6\ Specifically, we found that countries--
such as China, India, Iraq, and Paldstan--that pose a proliferation or 
security risk routinely obtain reprocessing and nuclear weapon-related 
information from DOE. We also found that DOE had transferred to other 
countries information appearing to meet the definition of sensitive 
nuclear technology, which requires export controls. Further, we found 
that DOE placed no restrictions on foreign nationals' involvement in 
reprocessing research at colleges and universities.
---------------------------------------------------------------------------
    \6\ Nuclear Nonproliferation: Department of Energy Needs Tighter 
Controls Over Reprocessing Information (GAO/RCED-87-150, Aug. 17, 1987) 
and Nuclear Nonproliferation: Better Controls Needed Over Weapons-
Related Technology (GAO/RCED-89-116, Jun. 19, 1989).
---------------------------------------------------------------------------
    In the 1990s, we continued to raise concerns. In 1991, we reported 
that DOE and its weapons laboratories were not complying with 
regulations designed to control the risk of weapons technology or 
material being transferred to foreign countries having ownership, 
control, or influence over U.S. companies performing classified work 
for DOE.\7\ We estimated that about 98 percent of the classified 
contracts awarded at the weapons laboratories during a 30-month period 
that were subject to such regulations did not fully comply with those 
regulations.
---------------------------------------------------------------------------
    \7\ Nuclear Nonproliferation: DOE Needs Better Controls to Identify 
Having Foreign Interests (GAO/RCED-91-83, Mar. 25, 1991).
---------------------------------------------------------------------------
    As recently as February of this year, we reported on information 
security problems in DOE's Initiatives for Proliferation Prevention 
with Russia.\8\ Under these initiatives, DOE may have provided defense-
related information to Russian weapons scientists--an activity that 
could negatively affect U.S. national security. We reviewed 79 projects 
funded by DOE under this program and found nine to have dual-use 
implications--that is, both military and civilian applications--such as 
improving aircraft protective coating materials, enhancing 
communication capabilities among Russia's closed nuclear cities, and 
improving metals that could be used in military aircraft engines.
---------------------------------------------------------------------------
    \8\ Nuclear Nonproliferation: Concerns With DOE's Efforts to Reduce 
the Risks Posed by Russia's Unemployed Weapons Scientists (GAO/RCED-99-
54, Feb. 19, 1999).
---------------------------------------------------------------------------
    We note that the Department of Commerce has also recently raised 
concerns about nuclear-related exports to Russia from at least one DOE 
facility. Commerce notified Los Alamos in January 1999 that equipment 
the laboratory sent to nuclear facilities in Russia required export 
licenses and that the laboratory may be facing civil charges for not 
obtaining the required licenses.
Physical Security
    Physical security controls involve the protection, primarily 
through security personnel and fences, of facilities and property. In 
1991, we reported that security personnel were unable to demonstrate 
basic skills such as the apprehension and arrest of individuals who 
could represent a security threat.\9\ Prior to that report, in 1990, we 
reported that weaknesses were occurring with security personnel, as 
some security personnel could not appropriately handcuff, search, or 
arrest intruders or shoot accurately.\10\ For example, we found that at 
the Los Alamos National Laboratory, 78 percent of the security 
personnel failed a test of required skills. Of the 54-member guard 
force, 42 failed to demonstrate adequate skill in using weapons, using 
a baton, or apprehending a person threatening the facility's security. 
Some failed more than one skill test. We also found that many Los 
Alamos' training records for security personnel were missing, 
incomplete, undated, changed, or unsigned. Without accurate and 
complete training records, DOE could not demonstrate that security 
personnel are properly trained to protect the facility.
---------------------------------------------------------------------------
    \9\ Nuclear Security: Safeguards and Security Weaknesses at DOE's 
Weapons Facilities (GAO/RCED-92-39, Dec. 13, 1991).
    \10\ Nuclear Safety: Potential Security Weaknesses at Los Alamos 
and other DOE Facilities (GAO/RCED-91-12, Oct. 11, 1990).
---------------------------------------------------------------------------
    Problems we have identified were not only with keeping threats out 
of the facilities, but also with keeping property in. For example, we 
reported in 1990 that the Lawrence Livermore National Laboratory could 
not locate about 16 percent of its inventory of government equipment, 
including video and photographic equipment as well as computers and 
computer-related equipment.\11\ When we returned in 1991 to revisit 
this problem, we found that only about 3 percent of the missing 
equipment had been found; moreover, the laboratory's accountability 
controls over the equipment were weaker than in the prior year.\12\ We 
also found that DOE's oversight of the situation was inadequate and 
that its property control policies were incomplete. We found similar 
problems at DOE's Rocky Flats Plant in 1994 where property worth 
millions of dollars was missing, such as forklift and a semi-trailer. 
Eventually, property worth almost $21 million was written off.\13\
---------------------------------------------------------------------------
    \11\ Nuclear Security: DOE Oversight of Livermore's Property 
Management System Is Inadequate (GAO/RCED-90-122, Apr. 18, 1990).
    \12\ Nuclear Security: Property Control Problems at DOE's Livermore 
Laboratory Continue (GAO/RCED-91-141, May 16, 1991).
    \13\ Department of Energy: The Property Management System at the 
Rocky Flats Plant Is Inadeguate (GAO/RCED-94-77, Mar. 1, 1994).
---------------------------------------------------------------------------
    Other problems in controlling sensitive equipment have been 
identified, such as disposing of usable nuclear-related equipment, that 
could pose a proliferation risk. For example, in 1993, DOE sold 57 
different components of nuclear fuel reprocessing equipment and 
associated design documents, including blueprints, to an Idaho salvage 
dealer. DOE subsequently determined that the equipment and documents 
could be useful to a group or country with nuclear material to process, 
and that the equipment could significantly shorten the time necessary 
to develop and implement a nuclear materials reprocessing operation. 
This incident resulted from a lack of vigilance at all levels for the 
potential impacts of releasing sensitive equipment and information to 
the public, and DOE conceded that system breakdowns of this type could 
have severe consequences in other similar situations where the 
equipment and documents may be extremely sensitive.
Personnel Security
    DOE's personnel security clearance program is intended to provide 
assurance that personnel with access to classified material and 
information are trustworthy. We have found numerous problems in this 
area, dating back to the early 1980s. In 1987, and again in 1988, we 
found that DOE headquarters and some field offices were taking too long 
to conduct security investigations.\14\ We found that the delays in 
investigations lowered productivity, increased costs, and were a 
security concern. We also found that DOE's security clearance database 
was inaccurate. Clearance files at two field offices contained about 
4,600 clearances that should have been terminated and over 600 
employees at the Los Alamos laboratory had clearance badges, but did 
not have active clearances listed in the files. In other cases, the 
files contained inaccurate data, such as incorrect clearance levels and 
names. We followed DOE's efforts to remedy these problems, and by 1993, 
DOE had greatly reduced its backlog of investigations.\15\ However, 
some DOE contractors were not verifying information on prospective 
employees such as education, personal references, previous employment, 
and credit and law enforcement records.
---------------------------------------------------------------------------
    \14\ Nuclear Security: DOE's Reinvestigation of Employees Has Not 
Been Timely (GAO/RCED-87-72, Mar. 10, 1987) and Nuclear Security: DOE, 
Needs a More Accurate and Efficient Security Clearance Program (GAO/
RCED-88-28, Dec. 29, 1987).
    \15\ Nuclear Security: DOE's Progress on Reducing Its Security 
Clearance Work Load (GAO/RCED-93-183, Aug. 12, 1993).
---------------------------------------------------------------------------
Accounting for Nuclear Material
    Material accountability relates to the protection of special 
nuclear material such as enriched uranium and plutonium. In 1991, we 
found that DOE facilities were not properly measuring, storing, and 
verifying quantities of nuclear materials.\16\ Without proper 
accounting for nuclear materials, missing quantities are more difficult 
to detect. We also found that DOE facilities were not complying with a 
rule requiring that two people always be present when nuclear material 
is being accessed or used. This rule is designed to preclude a single 
individual from having access to and diverting nuclear material without 
detection.
---------------------------------------------------------------------------
    \16\ Nuclear Security: Safeguards and Security Weaknesses at DOE's 
Weapons Facilities (GAO/RCED-92-39, Dec. 13, 1991).
---------------------------------------------------------------------------
    In 1994 and 1995, we reported on DOE's efforts to develop a nuclear 
material trading system for monitoring nuclear materials exported to 
foreign countries.\17\ A nuclear tracking system is important to 
protect nuclear materials from loss, theft, or diversion. In 1994, we 
reported that the existing system was not able to track all exported 
nuclear materials and equipment; moreover, DOE had not adequately 
planned the replacement system. We recommended activities that we 
believed were necessary to ensure that the new system would be 
successful. In 1995, we found that DOE had not implemented our 
recommendations and had no plans to do so. We also found that the 
system still had development risks. DOE was not adequately addressing 
these risks and had no plans to conduct acceptance testing, and as a 
result of these problems, it had no assurance that the system would 
ever perform as intended. Our concerns were justified, as 3 months 
after the new tracking system began operating, the technical committee 
overseeing this system concluded that it faced a high probability of 
failure and that the system should not be used.
---------------------------------------------------------------------------
    \17\ Nuclear Nonproliferation: U.S. International Nuclear Materials 
Tracking Capabilities Are Limited (GAO/RCED/AIMD-95-5, Dec. 27, 1994) 
and Department of Energy: Poor Management of Nuclear Materials Tracking 
System Makes Success Unlikely (GAO/AIMD--95-165, Aug. 3, 1995).
---------------------------------------------------------------------------
             key factors contributing to security problems
    As you can see, Mr. Chairman, our work over the years has 
identified a wide variety of specific security problems at DOE 
facilities. While each individual security problem is a concern, when 
looked at collectively over an extended period of time, a more serious 
situation becomes apparent that stems from systemic causes. In our 
view, there are two overall systemic causes of the security problems. 
First, there has been a longstanding lack of attention and/or priority 
given to security matters by DOE managers and its contractors. Second, 
and probably most importantly, there is a serious lack of 
accountability among DOE and its contractors for their actions. These 
two causes are interrelated and not easily corrected.
Lack of Attention and Priority to Security
    The lack of attention and priority given by DOE management and its 
contractors to security matters can be seen in many areas. One area is 
its long-term commitment to improving security. For example, in 
response to our 1988 report on foreign visitors, DOE required more 
background checks be obtained. However, 6 years later, it granted Los 
Alamos and Sandia exemptions to this requirement, and as a result, few 
background checks were conducted at those facilities. Also in response 
to our 1988 report, DOE brought in FBI personnel to assist its 
counterintelligence programs. However, the FBI eventually withdrew its 
personnel in the early 1990s because of resistance within DOE to 
implementing the measures the FBI staff believed necessary to improve 
security. We note with interest that in response to the current 
concerns with foreign visitors and other espionage threats against DOE 
facilities, the FBI is again being brought in to direct DOE's 
counterintelligence program.
    The lack of attention to security matters can be seen in other ways 
as well. In 1996, when foreign visitors were coming in increasing 
numbers to the laboratory, Los Alamos funded only 1.1 staff years for 
its counterintelligence program. Essentially, one person had to monitor 
not only thousands of visitors to the laboratory but also monitor over 
1,000 visits made by laboratory scientists overseas. This problem was 
not isolated to Los Alamos; funding for counterintelligence activities 
at DOE facilities during the mid-1990s could only be considered 
minimal. Prior to fiscal year 1997, DOE provided no direct funding for 
counterintelligence programs at its facilities. Consequently, at eight 
high-risk facilities, counterintelligence program funding was obtained 
from overhead accounts and totaled only $1.4 million and 15 staff. 
Resources were inadequate in other areas. In 1992, we reported that 
safeguard and security plans and vulnerability assessments for many of 
DOE's sensitive facilities were almost 2 years overdue because, among 
other reasons, DOE had not provided sufficient staff to get the job 
done. These plans and assessments are important in identifying threats 
to the facilities as well as devising countermeasures to the threats. 
In our view, not providing sufficient resources to these important 
activities indicates that security is not a top priority. This problem 
is not new. We reported in 1980 and again in 1982 that funding for 
security has low priority and little visibility.\18\
---------------------------------------------------------------------------
    \18\ Nuclear Fuel Reprocessing and the Problems of Safeguarding 
Against the Spread of Nuclear Weapons (EMD-80-38, Mar. 18, 1980) and 
Safeguards and Security At DOE's Weapons Facilities Are Still Not 
Adequate, (C-GAO/EMD-82-1, Aug. 20, 1982).
---------------------------------------------------------------------------
    Earlier I mentioned missing classified documents at Lawrence 
Livermore Laboratory. In response to that report, both DOE and 
laboratory officials showed little concern for the seriousness of the 
situation and told us that they believed the missing documents were the 
result of administrative error, such as inaccurate record keeping and 
not theft. Although DOE is required to conduct an assessment of the 
missing documents' potential for compromising national security, at the 
time of our report DOE did not plan to do this for over 1 year after we 
reported the documents missing.
    Similarly, security problems identified by DOE's own internal 
security oversight staff often go unresolved, even today. For example, 
issues related to the inadequate separation of classified and 
unclassified computer networks were identified at Los Alamos in 1988, 
1992, and 1994. This problem was only partially corrected in 1997, as 
classified information was discovered on Los Alamos' unclassified 
computer network in 1998. We found in 1991 that deficiencies DOE 
identified as early as 1985 at six facilities had not been corrected by 
1990 because DOE did not have a systematic method to track corrective 
actions taken on its own security inspections.
    The low priority given security matters is underscored by how DOE 
manages its contractors. DOE's contract with the University of 
California for managing its Los Alamos and Lawrence Livermore national 
laboratories contain specific measures for evaluating the university's 
performance. These measures are reviewed annually by DOE and should 
reflect the most important activities of the contractor. However, none 
of the 102 measures in the Los Alamos contract or the 86 measures in 
the Lawrence Livermore contract relate to counterintelligence. We 
reported in 1997 that DOE had not developed measures for evaluating the 
laboratories' counterintelligence activities, and DOE told us it was 
considering amending its contracts to address this problem. Performance 
measures for counterintelligence activities are still not in its 
contracts for these two laboratories. The contracts do contain a 
related measure, for safeguarding classified documents and materials 
from unauthorized persons, but this measure represents less than 1 
percent of the contractor's total score. Safeguards and security 
performance measures in general account for only about 5 percent of the 
university's performance evaluations for the two laboratories.
    The low priority afforded security matters may account for the low 
rating DOE has just given nuclear weapons facilities in its latest 
Annual Report on Safeguards and Security. Two weapons laboratories--Los 
Alamos and Lawrence Livermore--received a rating of ``marginal'' for 
1997 and 1998. In its annual evaluation of Los Alamos' overall 
performance, however, DOE rated the laboratory as ``excellent'' in 
safeguards and security, even though the laboratory reported 45 
classified matter compromises and infractions for the year. The 
previous 3-year rolling average was 20. DOE explained that the overall 
excellent score was justified based on Los Alamos' performance in many 
different aspects of safeguards and security. For future contracts, a 
new DOE policy will enable the Department to withhold a laboratory's 
full fee for catastrophic events, such as a loss of control over 
classified material. We recommended as far back as 1990 that DOE should 
withhold a contractor's fee for failing to fix security problems on a 
timely basis. Both laboratories have been managed by the University of 
California since their inception without recompeting these contracts, 
making them among the longest-running contracts in the DOE complex.
Lack of Accountability
    In the final analysis, security problems reflect a lack of 
accountability. The well-documented history of security lapses in the 
nuclear weapons complex show that DOE is not holding its contractors 
accountable for meeting all of its important responsibilities. 
Furthermore, DOE leadership is not holding its program managers 
accountable for making sure contractors do their jobs.
    Achieving accountability in DOE is made more difficult by its 
complex organizational structure. Past advisory groups and internal DOE 
studies have often reported on DOE's complex organizational structure 
and the problems in accountability that result from unclear chains of 
command among headquarters, field offices, and contractors. For example

<bullet> The FBI, which examined DOE's counterintelligence activities 
        in 1997, noted that there is a gap between authority and 
        responsibility, particularly when national interests compete 
        with specialized interests of the academic or corporate 
        management that operate the laboratories. Citing the 
        laboratories' autonomy granted by DOE, the FBI found that this 
        autonomy has made national guidance, oversight, and 
        accountability of the laboratories' counterintelligence 
        programs arduous and inefficient.
<bullet> A 1997 report by the Institute for Defense Analyses cited 
        serious flaws in DOE's organizational structure. Noting long-
        standing concerns in DOE about how best to define the 
        relationships between field offices and the headquarters 
        program offices that sponsor work, the Institute concluded that 
        ``the overall picture that emerges is one of considerable 
        confusion over vertical relationships and the roles of line and 
        staff officials.'' As a consequence of DOE's complex structure, 
        the Institute reported that unclear chains of command led to 
        the weak integration of programs and functions across the 
        Department, and confusion over the difference between line and 
        staff roles.\19\
---------------------------------------------------------------------------
    \19\ The Organization and management of the Nuclear Weapons 
Program, Institute for Defense Analyses (March 1997).
---------------------------------------------------------------------------
<bullet> A 1997 DOE internal report stated that ``lack of clarity, 
        inconsistency, and variability in the relationship between 
        headquarters management and field organizations has been a 
        longstanding criticism of DOE operations . . . This is 
        particularly true in situations when several headquarters 
        programs fund activities at laboratories . . .'' \20\
---------------------------------------------------------------------------
    \20\ DOE Action Plan for Improved Management of Brookhaven National 
Laboratory, DOE (July 1997).
---------------------------------------------------------------------------
<bullet> DOE's Laboratory Operations Board also reported in 1997 on 
        DOE's organizational problems, noting that there were 
        inefficiencies due to DOE's complicated management structure. 
        The Board recommended that DOE undertake a major effort to 
        rationalize and simplify its headquarters and field management 
        structure to clarify roles and responsibilities.\21\
---------------------------------------------------------------------------
    \21\ Department of Energy: Uncertain Progress in Implementing 
National Laboratory Reforms, (GAO/RCED-98-197, Sept. 10, 1998).
---------------------------------------------------------------------------
    DOE's complex organization stems from the multiple levels of 
reporting that exist between contractors, field offices, and 
headquarters program offices. Further complicating reporting, DOE 
assigns each laboratory to a field operations office, whose director 
serves as the contract manager and also prepares the contractor's 
annual appraisal. The operations office, however, reports to a separate 
headquarters office under the Deputy Secretary, not to the program 
office that supplies the funding. Thus, while the Los Alamos National 
Laboratory is primarily funded by Defense Programs, it reports to a 
field manager who reports to another part of the agency.
    We believe these organizational weaknesses are a major reason why 
DOE has been unable to develop long-term solutions to the recurring 
problems reported by advisory groups. Recent events at the Brookhaven 
National Laboratory in New York, for example, illustrate the 
consequences of organizational confusion. Former Secretary Pena fired 
the contractor operating the laboratory when he learned that the 
contractor breached the community's trust by failing to ensure it could 
operate safely. DOE did not have a clear chain of command over 
environment, safety, and health matters and, as a result, laboratory 
performance suffered in the absence of DOE accountability. To address 
problems in DOE's oversight, the Secretary removed the Chicago 
Operations Office from the chain of command over Brookhaven, by having 
the on-site DOE staff report directly to the Secretary's office. We 
found, however, that even though the on-site staff was technically 
reporting directly to the Secretary's office, the Chicago Operations 
Office was still managing the contractor on a day-today basis, 
including retaining the responsibility for preparing the laboratory's 
annual appraisal. Chicago officials told us that there was considerable 
confusion regarding the roles of Chicago and on-site DOE staff. As a 
result, DOE did not fundamentally change how it manages the contractor 
through its field offices.
    This concludes my testimony, and I will be happy to answer any 
questions you may have.

                                Appendix

    Nuclear Fuel Reprocessing And The Problems Of Safeguarding Against 
The Spread Of Nuclear Weapons, (EMD-80-38, Mar. 18, 1980).
    Nuclear Fuel Reprocessing and the Problems of Safeguarding Against 
the Spread of Nuclear Weapons (EMD-80-38, Mar. 18, 1980).
    Safeguards and Securely At DOE's Weapons Facilities Are Still Not 
Adequate (C-GAO/EMD-82-1, Aug. 20, 1982).
    Security Concerns at DOE's Rocky Flats Nuclear Weapons Production 
Facility (GAO/RCED--85-83).
    Nuclear Nonproliferation: DOE Has Insufficient Control Over Nuclear 
Technology Exports (GAO/RCED-86-144, May 1, 1986).
    Nuclear Security: DOE's Reinvestigation of Employees Has Not Been 
Timely (GAO/RCED-87-72, Mar. 10, 1987).
    Nuclear Nonproliferation: Department of Energy Needs Tighter 
Controls Over Reprocessing Information (GAO/RCED-87-150, Aug. 17, 
1987).
    Nuclear Security: DOE Needs a More Accurate and Efficient Security 
Clearance Program (GAO/RCED-88-28, Dec. 29, 1987).
    Nuclear Nonproliferation: Major Weaknesses in Foreign Visitor 
Controls at Weapons Laboratories (GAO/RCED-89-31, Oct. 11, 1988).
    Nuclear Security: DOE Actions to Improve the Personnel Clearance 
Program (GAO/RCED-89-34, Nov. 9, 1988).
    Nuclear Nonproliferation: Better Controls Needed Over Weapons-
Related Information and Technology (GAO/RCED-89-116, Jun. 19, 1989).
    Nuclear Security: DOE Oversight Livermore's Property Management 
System Is Inadequate (GAO/RCED-90-122, Apr. 18, 1990).
    Nuclear Safely: Potential Security Weaknesses At Los Alamos and 
Other DOE Facilities (GAO/RCED-91-12, Oct. 11, 1990).
    Nuclear Security: Accountability for Livermore's Secret Classified 
Documents Is Inadequate (GAO/RCED-91-65, Feb. 8, 1991).
    Nuclear Nonproliferation: DOE Needs Better Controls to Identify 
Contractors Having Foreign Interests (GAO/RCED-91-83, Mar. 25, 1991).
    Nuclear Security: Property Control Problems at DOE's Livermore 
Laboratory Continue (GAO/RCED-91-141, May 16.1991).
    Nuclear Security: DOE Original Classification Authority Has Been 
Improperly Delegated (GAO/RCED-91-183, July 5, 1991).
    Nuclear Security: Safeguards and Security Weaknesses at DOE's 
Weapons Facilities (GAO/RCED-92-39, Dec. 13, 1991).
    Nuclear Security: Weak Internal Controls Hamper Oversight of DOE's 
Security Program (GAO/RCED-92-146, June 29, 1992).
    Nuclear Security: Improving Correction of Security Deficiencies at 
DOE's Weapons Facilities (GAO/RCED-93-10, Nov. 16, 1992).
    Nuclear Security: Safeguards and Security Planning at DOE 
Facilities Incomplete (GAO/RCED-93-14, Oct. 30, 1992).
    Personnel Security: Efforts by DOD and DOE to Eliminate Duplicative 
Background Investigations (GAO/RCED-93-23, May 10, 1993).
    Nuclear Security: DOE's Progress on Reducing Its Security Clearance 
Work Load (GAO/RCED-93-183, Aug. 12, 1993).
    Nuclear Nonproliferation: U.S. International Nuclear Materials 
Tracking Capabilities Are Limited (GAO/RCED/AIMD-95-5, Dec. 27, 1994).
    Department of Energy: Poor Management of Nuclear Materials Tracking 
System Makes Success Unlikely (GAO/AIMD-95-165, Aug. 3, 1995).
    Nuclear Nonproliferation: Concerns With the U.S. International 
Nuclear Materials Tracking System (GAO/T-RCED/AIMD-96-91, Feb. 28, 
1996).
    DOE Security: Information on Foreign Visitors to the Weapons 
Laboratories (GAO/T--RCED-96-260).
    Department of Energy: DOE Needs to Improve Controls Over Foreign 
Visitors to Weapons Laboratories (GAO/RCED-97-229, Sept. 25, 1997).
    Department of Energy: Information on the Distribution of Funds for 
Counterintelligence Programs and the Resulting Expansion of These 
Programs (GAO/RCED-97-128R, Apr. 25, 1997).
    Department of Energy: Problems in DOE's Foreign Visitor Program 
Persist (GAO/T-RCED-99-19, Oct. 6, 1998).
    Department of Energy: DOE Needs To Improve Controls Over Foreign 
Visitors To Its Weapons Laboratories (GAO/T-RCED-99-28, Oct. 14, 1998).
    Nuclear Nonproliferation: Concerns With DOE's Efforts to Reduce the 
Risks Posed by Russia's Unemployed Weapons Scientists (GAO/RCED-99-54, 
Feb. 19, 1999).

    Mr. Upton. Well, thank you very much for your testimony. 
Because, again, you are the only panel, and I am the only 
current member of the subcommittee that's here and there is no 
one here really to object, we are going to, though I didn't 
clear this, Mr. Klink, before, we are going to do 10 minutes of 
questioning per member. So, that's for the staff to know as 
well. I am told that the Energy and Environment Subcommittee 
has now finished its work downstairs, so I presume that other 
members will come up. So, I am going to put this little timer 
here and watch it very carefully, before yielding back, as I 
welcome other members here. By the way, all the members are 
able to put an opening statement into the record.
    I appreciate your testimony, and I, again, very much 
appreciate the opportunity to look over it through the weekend, 
when I was in Michigan, and have a number of questions 
prepared, and wrote down a number of comments as you were 
testifying, as well. I guess the bottom line for me is, as I 
begin to look into the situation, you talk about all the 
numbers of visitors coming in. Can you explain why we let so 
many foreign visitors into our labs, what the importance is, 
particularly as we look at Cuba, Iran, Iraq, and obviously 
China, and the reports that have been in the press? What are 
the benefits?
    Mr. Rezendes. These laboratories do a whole array of 
activities, including producing nuclear weapons. Some of the 
basic elements in producing nuclear weapons required high 
energy physics, and a number of other areas that relate to 
commercial, as well as just academic, besides just producing 
nuclear weapons. These laboratories, DOE readily points out, 
and I agree, have more Nobel Laureates than any place on the 
planet. So the best and the brightest from the world are 
attracted to these facilities. If you have an interest in high 
energy physics, you want to go to Los Alamos and study there, 
or participate, or somehow get plugged into the research that 
is going there. And increasingly, a lot of DOE's research and 
development programs are international. A lot of the equipment 
that is being built today is being built on a collaborative 
basis with other nations. So, there is some rational as to why 
they would want to have them there.
    Mr. Upton. Would it violate some treaty that we might have 
with some other nation if we were to close the door on some of 
these foreign visitors?
    Mr. Rezendes. I don't know----
    Mr. Upton. I'm thinking about the space station, as an 
example, where we have a collaborative agreement with a number 
of different countries looking into that.
    Mr. Rezendes. I don't know all the specific treaties we 
have, but we have a number of treaties that provide exchange of 
scientists and information. I don't know if there would be a 
violation that would trigger anything there, but I am sure that 
we get a lot of positive benefits in having foreigners there, 
also.
    Mr. Upton. You talked about the percentage of background 
checks that were conducted, at some point considerably less 
than 10 percent, even in some cases less than 5 percent. What 
kind of background--I am familiar with background checks. When 
I worked at the White House, there was a background check 
undertaken on me, my staff has had background checks and staff 
of this subcommittee has had background checks. What is it, 
exactly, and who does the background checks on these folks, as 
they try to come to try to get entrance into our labs?
    Mr. Rezendes. I believe most of them are being done by the 
FBI. They would basically identify whether this individual that 
you are checking has any foreign counterintelligence 
connections. From DOE's perspective, they say the reason they 
didn't do a lot of background checks because they had other 
defense in-depth processes there. Even if they had someone from 
China who was a spy, for example, they had the physical 
security at Los Alamos. They also had control over classified 
information and they had restricted areas, controlled areas, 
non-controlled areas. They said with this defense in depth, it 
was not necessary to know whether, in fact, the foreign visitor 
was a spy. But we have checked each one of these other defense 
mechanisms, and we found major weaknesses in every one of them.
    Mr. Upton. Well, you talked about, in essence, many of 
these labs were, once you had access to it, it was an open 
campus.
    Mr. Rezendes. That's correct. I had a quote from one 
official who said they prefer to have a campus-style atmosphere 
there.
    Mr. Upton. You indicated that there were 10,000 secret 
documents that were missing. Do you have any idea what might 
have happened to them?
    Mr. Rezendes. Well, see, we're concerned about this as 
well. Those 10,000 secret documents covered a whole range of 
issues, including weapons design. When we brought this to the 
attention of Lawrence Livermore, they were not too excited 
about it. They basically told us they thought it was an 
administrative error, that the documents were not really lost, 
but that they were just not well accounted for; they may have 
been destroyed, and just not documented that they were 
destroyed. However, they did not know that. And, in fact, their 
own procedures call for some kind of assessment, a threat 
assessment, as to what has happened here. They took over a year 
to even begin that threat assessment, to determine what was the 
real issues there with those 10,000 documents.
    Mr. Upton. You talked a little bit about the computers, and 
you have testified, I guess, in reports that you looked at back 
in 1988, 1992, and 1994, that there really was not a division 
between classified and unclassified. We read in the press, even 
in the last day or 2, but again last week and again the week 
before, how Secretary Richardson had, in essence, taken them 
offline, closed them off, shut them down, whatever he did. They 
are back online now; I guess that order came forth in the last 
day or 2. Did they take steps to separate between classified 
and unclassified in terms of what they did? Did they correct 
that as they turned them back on?
    Mr. Rezendes. I don't know. We haven't been back there 
recently, but we know that the intent was to do just that, and 
also to provide training, in terms of how to do that, for the 
various individuals who work those computers.
    Mr. Upton. One of the things that, as we look back at the 
years that, apparently, the leaks have been going on, through a 
number of different administrations, certainly a good number of 
Secretaries are more anxious to talk to Bill Richardson, who is 
obviously a new Secretary, a former member of this committee, 
and someone who is recognized and willing to do something--as 
we sort of think about the horse is out of the barn, but how do 
we prevent horses in the future from ever getting out of the 
barn. You have proposed many things over the years, it seems, 
as you testified, not very many of them, if at all, were ever 
undertaken by the former Secretaries of Energy, that were 
there.
    I noted that, in 1997, the Department of Energy only 
requested $5 million for security for these labs. Do you know 
if they actually asked for more? Is that what we gave them, or 
did they ask for more? With the recommendations that you have 
prepared in your report, what would it cost to bring these labs 
up to speed, in terms of your recommendations? What is your 
guess?
    Mr. Rezendes. There are internal studies from DOE that have 
those estimates. In fact, some of the ones we have seen are 
talking $300 or $400 million to improve security there. But in 
terms of the $5 million, that was strictly for 
counterintelligence, and that was in addition to what the 
laboratory is also spending.
    Part of the problem here is that there is no single item in 
the budget that you can go to that says ``safeguards and 
securities.'' In essence, each of the laboratories, each of the 
facilities, use their funds to employ security personnel, 
fences, and the kinds of things you would have in a safeguards 
and securities program. But, that is not a specific line item; 
so, its very difficult to collect, and go through, all the 
budgets and try and find out actually how much is spent out 
there.
    Mr. Upton. Do you think that would be valuable for us to 
do, to have a line item for counter-intelligence and security 
for these labs, as far as the appropriations process?
    Mr. Rezendes. As far back as 1977, we were recommending 
that they have an independent assessment, and that independent 
assessment provide the President and the Congress with an 
assessment what the security is at these facilities and what it 
is going to cost to correct it.
    Mr. Upton. I want to go back, again, to the question about 
the actual background check itself. And I am going to use it in 
the context of when they did a background check on Fred Upton. 
They went back, and they talked to my former teachers, they 
talked to my neighbors, they talked to my roommates, it was 
actually good to look at the file because I had lost track of a 
number of them over the years but, they did a fairly exhaustive 
and thorough review, and I passed, obviously, with flying 
colors.
    But, as you think about folks coming in from other 
countries, whether it be Cuba, Iraq, or China, there is no way 
that you can have a similar type check, or even have access to 
that individual's history. And yet, thousands of folks are 
coming into these labs, of which 95 percent of them don't even 
appear to even get a cursory review. Is that--unless someone--
--
    Mr. Rezendes. Yes, you can find stuff. I'll let Jack 
Schulze, who has actually dealt with the FBI on this issue--but 
you know, when we actually checked, we found that 13 of those 
that we asked them to check, actually had connections to 
counterintelligence. So they keep a data base.
    Mr. Schulze. Let me clarify what they do regarding 
``background check.'' DOE likes to use the term ``indices 
check'' and the FBI uses the term ``name check.'' Basically, 
the name, the place of birth, and the date of birth, is 
provided to both the FBI and the CIA. They take that 
information and they go to their files to see if there is 
derogatory information on that individual. If they do not have 
any information, they are not going to go out and do another 
investigation. They just send back to DOE, ``We don't know 
anything about them,'' and that is the extent of it.
    If they have something that is derogatory--it could be that 
the person is connected with intelligence service; it could be 
other things that raises concerns, or could raise concerns to 
DOE--they will transmit that information over to DOE, for them 
to use in their decision to whether to let this person into the 
lab or not.
    Mr. Rezendes. I think you are asking a process question. I 
want to make it clear. They are not going to go to this 
foreigner's school, or talk to his neighbors, as they did in 
your situation. But, basically, we have our own intelligence 
networks that are overseas, and are keeping track of what is 
happening there. To the extent that we can re-harvest that 
information, we can use it to compare people who come here.
    Mr. Upton. Thank you. My 10 minutes is expired, so I would 
yield 10 minutes to Mr. Klink.
    Mr. Klink. I ask the chairman unanimous consent that Mr. 
Stupak be allowed to go out of order. I understand that he has 
some time constraints.
    Mr. Upton. Without objection, fine.
    Mr. Stupak. Thank you, and thank you Mr. Chairman, and 
thank you, Mr. Klink, for yielding. Mr. Rezendes, am I saying 
that right?
    Mr. Rezendes. Rezendes.
    Mr. Stupak. Rezendes. In your written testimony, you 
mention that the DOE counterintelligence program had never 
completed comprehensive threat assessment. So they really 
didn't know what threat they're guarding against, or how to 
concentrate their resources on meeting that threat. In the 20 
plus years that GAO has been looking at security and safeguards 
at the DOE weapons facilities, how many times have you pointed 
out that comprehensive threat or vulnerability assessments had 
not been made?
    Mr. Rezendes. I don't have an exact count, but I would say 
several would be probably fair.
    Mr. Stupak. Well, let me list for you a few times that you 
brought this to Congress' attention and to DOE's attention. I 
believe it was 1976, 1982, 1988, 1992, and 1997. Now that spans 
the last five administrations. A period in which the cold war 
was in full swing, and the period after the end of the cold 
war. Can you explain to me why DOE, in all these 
administrations, can't develop a good threat assessment and 
focus their resources on meeting that threat?
    Mr. Rezendes. The only conclusion I can come to is they 
don't consider it a high priority. They prefer to spend their 
money on other things other than this.
    Mr. Stupak. Well, you had said earlier in some questions to 
Mr. Upton, that they thought that security defense in depth.
    Mr. Rezendes. Right.
    Mr. Stupak. Explain that. What do you mean?
    Mr. Rezendes. Basically, as I was saying, they didn't do 
background checks on these foreigners on some cases, and 
sometimes we were told they didn't care if they were foreign 
intelligence officers because, basically, they had the physical 
security. They had guards. They had gates there. They were 
prevented from going into restricted areas. They had control 
over classified documents. Classified documents weren't just 
hanging around. But, the reality is, every time we looked at 
one of those defense mechanisms, we found problems.
    Mr. Stupak. Is that a combination of don't care, didn't 
know? Or relying too much on the security that was in place? Is 
it a combination, or is it any one of those three stand out 
that they just----
    Mr. Rezendes. Actually, I think it's even more basic than 
that. I think there's a culture that exists there of focus on 
research and openness, and focus on what they're doing, whether 
its high energy physics or not. But, I think the real 
fundamental problem is a lack of accountability. We're not 
holding people accountable, and I think that if we did that, 
these wouldn't reoccur with such frequency.
    Mr. Stupak. My staff was told yesterday by DOE that a 
threat assessment involved looking at the entire DOE complex, 
and vulnerability assessments are those developed for each 
individual site. Why is it so important to have a threat 
assessment? Don't people just know what the threats are?
    Mr. Rezendes. No. You could have various countries. One 
country could be targeting, for example, information on 
electronics on a warhead. Another one could be talking about 
re-processing nuclear materials. Another one may be targeting 
actual physical theft of nuclear materials. You would have a 
different response to each one of those, and those responses 
would be different at each of the facilities because each one 
had various duties. One may be more focused on electronics for 
a specific warhead. Another one may be focused more on re-
processing. There could be a number of issues.
    Mr. Stupak. Other than weapons, what else do they produce 
or research do they do at these labs?
    Mr. Rezendes. Oh, great. That's a really good questions, 
because I think we are focused on weapons. I like to point out 
that nuclear weapons is yesterdays news. That's 50 year old 
technology that is delivered on warheads that is really 70 year 
old technology. The new stuff today is supercomputers. I think 
we need to be as careful about them as some of these nuclear 
designs. Not that I'm advocating loosening controls on nuclear 
designs. But, certainly, I think supercomputers are much more 
advantageous to our enemies in the future.
    Mr. Stupak. At which one of these labs is the supercomputer 
research being done?
    Mr. Rezendes. Actually, its being done at three of them, 
but the two big ones are Los Alamos and Livermore.
    Mr. Stupak. Since you moved from, if I can use the word, 
the old technology of nuclear weapons to the supercomputers, 
has there been any sense in these labs that, maybe we have to 
ratchet it up now, now we're into computers and more 
electronics, that we should ratchet up our security or do a 
threat assessment on what we're doing in this new phase of work 
we're doing?
    Mr. Rezendes. I don't know, obviously, what's in their 
head. Most of the kinds of things we're talking to, and I 
probably should make that very clear, is, we're talking about 
the processes for actual security, which is the security 
forces, the background checks, the personnel security checks, 
that kinds of stuff. The area we've not addressed, and I think 
its ripe, is what's in people's heads and what they take to 
conferences, what they take outside the gates, or the 
conversations they have with other people. That is a much more 
difficult thing to control, and one we've not addressed in this 
process.
    Mr. Stupak. Let me ask you this. We're concerned about the 
security there, and Mr. Upton asked a question back to 1997. 
Congress gave an extra $5 million for counterintelligence, but 
yet, when I look at the way that $5 million was spent, I guess 
I'm sort of bemused. Because if I understand right, the $5 
million, only $1.6 million additional went into actual 
counterintelligence. DOE headquarters kept $1.3 million for 
studies. The facilities took $1.4 million for overhead, and 
reduced their own expenditures. The Lawrence-Livermore lab, for 
example, was allocated the most money, and put about half of it 
into overhead, and reduced its previous expenditures.
    So, the money didn't go where Congress intended. But, it 
seems like there is not an appreciation of the sensitivity or 
the seriousness of the information being dealt with, if I can 
use the word in the campus atmosphere that you described 
earlier.
    Mr. Rezendes. I think you're exactly right, and I that is 
an excellent example of the lack of priority that is given to 
this, specifically at the facilities. When DOE provided the 
extra money to assist them with counterintelligence, some of 
these facilities' reaction was to cut their own commitment, cut 
their own budgets that there were doing, and substituting the 
DOE money. Obviously, they thought that spending that extra 
money on other R&D, or other kinds of activities at the 
facilities, was much more important than counterintelligence.
    Mr. Stupak. I know that we've only had two witnesses thus 
far, but I do have to run to another hearing. I'd be 
interested, after your review, after all that has gone on, any 
other recommendations or--how would you address this lack of 
sensitivity to this issue?
    Mr. Rezendes. Two issues. One, DOE has a very complex 
organizational structure which makes it difficult to set clear 
responsibility, which is one problem. Once you establish clear 
responsibility for having people do something, hold them 
accountable for doing it. We've not seen that.
    Mr. Stupak. Responsibility and accountability.
    Mr. Rezendes. Absolutely.
    Mr. Stupak. How do you deal with the part you point out 
where a lot of this is in the minds of the people who work 
there? How do you deprogram that periodically to make sure that 
those thoughts are not getting away from its intended purpose?
    Mr. Rezendes. You have to take very aggressive action when 
an issue comes up. Make it severe. Make it visible, and make it 
painful so that everybody understands, so you have created a 
case example that people can really relate to.
    Mr. Stupak. So, with that would have to be that 
responsibility and accountability you speak of.
    Mr. Rezendes. Absolutely.
    Mr. Stupak. Thank you. I yield back any time I may have.
    Mr. Upton. Thank you. Now that more members are here, we're 
going to go back to the 5-minute rule. We'll go another round 
if we need to, for sure. Mr. Bilbray.
    Mr. Bilbray. Thank you, Mr. Chairman. I won't take that as 
a subtle hint, I'm sure.
    Mr. Upton. No. No. Not meant that way.
    Mr. Bilbray. I'm looking down at the list of visitors. 
Didn't anybody even raise a flag when you had, you know, 
hundreds of visitors from China, Iraq, and Russia? Nobody even 
raised a flag about that?
    Mr. Rezendes. It made us nervous.
    Mr. Bilbray. I would just be very interested in issues like 
China isn't participating in our international fusion research, 
the Eter program. What were they interested in? What were the 
visits aimed at?
    Mr. Rezendes. I don't think I have that list. Do we? There 
was a wide variety of issues. I don't have any specifics for 
you, though.
    Mr. Bilbray. I'm just interested. I see a lot of the 
partners that are working with us on the energy projects. Of 
course, I would question why France isn't on the review process 
after we've seen some of things that France has done in the 
past with economic espionage. I'll open that up as a 
controversy here. In fact, I told the French Ambassador to his 
face that I was more worried about his espionage than I was 
about Russia.
    Mr. Rezendes. I think you raise a very good concern, 
because more and more these laboratories' activities are going 
into applied research and commercialization.
    Mr. Bilbray. I'm glad you reinforced that, because I think 
too many of us always think about the military application 
traditionally, and not the fact that a lot of it is economic 
espionage and then it, de facto, can be distributed through the 
economic aspect of it.
    The report that identified the visitors--Mr. Chairman, I 
need some clarification. Is the re-classification of the 
countries in 1994, is that privileged information, or can I 
discuss it in public?
    Mr. Upton. I'm not sure. The GAO report has a classified 
and an unclassified version. From where I see what you're 
reading, that's the unclassified report.
    Mr. Bilbray. Okay. I just want to point out----
    Mr. Upton. 1997, right?
    Mr. Bilbray. Yes. 1997.
    Mr. Rezendes. Yes. That's unclassified.
    Mr. Bilbray. It just shows that we've gone from our 
sensitivity back in 1994 that all these countries need to be 
re-classified. The countries that we're moved from sensitive to 
non-sensitive included nations named Yugoslavia, Vietnam, 
Romania. I'm just worried. Our good intentions are out there 
much farther than reality is when we talk about who is or who 
isn't a potential threat. Do you have any comments at all about 
that aspect of it? The reports that come down don't even 
include that.
    Mr. Rezendes. Exactly. You're right. Who our enemies are 
and who are friends are changes from year to year, and over 
decades it becomes more obvious how their shifts are. But, even 
with our friends, we have to be cautious about what kind of 
information is out there. Whether its from a defense posture, 
or whether its a commercial posture.
    Mr. Bilbray. My biggest problem, I've had--my mother was an 
Estonian immigrant, and she always pointed out that Americans 
lose the fine line between being the nice guy and being the 
patsy. We bend over so much to try to be the nice guy that 
people take advantage of that. Mr. Chairman, I have other 
questions, but I think that it is quite clear that the new 
Secretary has quite a lot of work cut out for him, and thank 
god its the man we know who's up there who's doing it, because 
I think he can take it on. But, I think it raises major issues 
that we have to continue to raise, and I don't think anybody in 
their right mind would look at this and say this is a 
reasonable way for our Nation's laboratories to be operated, 
especially with the sensitive issues.
    I'm glad that somebody who represents San Diego county--
with all our high tech--I'm glad that you highlight that the 
nuclear threat is one that the public and the Congress 
perceives, but it is those threats in high tech that we 
underestimate, and that is really the cutting edge of our 
military superiority right now. Not how big a bomb we have, or 
how fancy a bomb we have, but our ability to get things to a 
certain location at a certain time. Thank you very much, and 
that obviously indicates that he's cutting me off.
    Mr. Upton. Thank you, Mr. Bilbray. Mr. Klink.
    Mr. Klink. Mr. Rezendes. I was just thinking that if we 
handed out an award for the most re-occurring role in this 
subcommittee, you probably would win it. You've become someone 
we depend on a great deal, and you always are here, and 
cooperative, and intelligent, and informative, and I welcome 
you back again for this Congress.
    I'm almost indecisive about how to start the questioning. 
There is so much material that we need to go through. Let me 
set the basis for this, if I can, to talk about what, in fact, 
kind of spying, and what kind of information, and how it may be 
taken out of these laboratories. I think that a lot of us have 
grown up on James Bond movies, and we tend to think of spying 
in that regard. Very overt. It appears to me by what I've read 
and what I've heard, that this is much less overt. It is, in 
fact, scientists and others coming from other countries. Some 
countries that we would be suspicious of, as my colleague Mr. 
Bilbray said. Automatically when we hear Iraq and China and 
some of these other countries, the hair on the back of our neck 
may rise, but, in fact, the worst damage may not come from 
people from those obvious countries. It may not be leaving in 
obvious ways. As I said in my opening statement, we're worried 
about gates and guns and guards. In fact, what we're worried 
about is what comes out of the laboratories in the minds of our 
people.
    Mr. Rezendes. Correct.
    Mr. Klink. So, it may be private and personal relationships 
which develop.
    Mr. Rezendes. Absolutely.
    Mr. Klink. Which our scientists and others may not even 
know. They may, in fact, be hapless in knowing that they are 
victims. These are probably not people who have accepted 
anything gratuitous. They have not been paid for giving away 
secrets. But, in fact, once they develop relationships with 
these people, if, for example, the Chinese were able to get one 
snippet of information from you, and one from Mr. Boss, and one 
from Mr. Schulze, and one from Mr. Fenzel, and one from Mr. 
Upton, and one from me, they go back to China, they put all 
these information----
    Mr. Rezendes. They didn't get it from me.
    Mr. Klink. Now they've got something and we didn't know 
about it.
    Mr. Rezendes. That's true.
    Mr. Klink. What my problem is, is how do we make sure, and 
I go back to Mr. Stupak's question. In 1997, we gave $5 million 
more dollars to say, ``take care of this problem.'' Instead, 
that money went for overhead, it went for other things, and, in 
fact, if we're just bringing in people and we're giving them 1 
to 2 hours worth of training in a year, essentially aren't all 
we're accomplishing is saying, ``here's how you change the 
password on your computer, and, by the way, put these documents 
in a safe and make sure the safe is locked when you're not in 
your office.''
    What else can we be accomplishing with all of this? I was 
interested in your 1997 report on foreign visitors where you 
mention that DOE was trying to improve its counterintelligence 
program. But, you said that the program would not be funded 
because of, the quote you gave was, ``historical lack of 
support for counterintelligence programs.''
    Now, you found that the annual counterintelligence budget 
was $1.4 million, which put about one person at each facility. 
What could one person do?
    Mr. Rezendes. Not very much. In fact, I can give you an 
example at Los Alamos. They have one person who is responsible 
for not only checking with foreign visitors, but also 
debriefing the thousands of DOE officials and contract 
officials who go oversees. It was an impossible task. One 
person could not do all of that.
    Mr. Klink. Other than the chairman holding this great 
hearing, and us continuing to push, how do we raise the level 
of this with DOE? Again, going back to another one of Mr. 
Stupak's questions. You were here from 1976 on through to the 
present. Five administrations. What in the world can we do to 
make something happen? We can't wait any longer. The kind of 
information that we may be losing with both Republican and 
Democratic administrations, both Republican and Democratic 
appointed Secretaries of Energy, and the underlings, just 
continues. Everybody got some share of the blame in all of 
this. How do we begin to make sure, under this subcommittees 
oversight, that it ends now.
    Mr. Rezendes. Great question.
    Mr. Klink. Give me a great answer.
    Mr. Rezendes. Part of it relates to having the correct 
information, having counterintelligence information, that sort 
of thing. But then, who gets that? We advocated for over 20 
years that there should be some kind of independent source that 
evaluates what is happening in safeguards and securities at 
DOE; that they report in a report to the President and to 
Congress to identify not only what the problems are, but also 
to address what the recommendations are, and what its going to 
cost to fix that. We still don't see that happening as clearly 
as it needs to happen.
    Once you have that information, I think what is really 
incumbent, and what we'd like to see, is you hold the 
Department of Energy responsible for following through. Put 
them on a schedule with reporting timeframes back to you. If it 
has to be monthly, 6 months, once a year. I don't know what the 
timeframe is. If they're not doing it, hold somebody 
accountable. Somebody should lose their job if its not done. I 
think if that message is sent clearly, it will happen.
    Mr. Klink. If I could just ask your indulgence, Mr. 
Chairman, for one follow-up? GAO also said that DOE has no 
detailed oversight of the labs counterintelligence programs, 
performance measures for them, or even periodic evaluation. If 
that still true?
    Mr. Rezendes. That is still true. I know Secretary 
Richardson and Ernie Moniz, in particular, has been designated 
by the Secretary--he's the Under Secretary for DOE--has been 
designated to head up a group to try to clear up these lines of 
responsibility and accountability, and also the various offices 
that relate to intelligence, counterintelligence, and Office of 
Safeguards and Security, and security evaluation. Those are all 
separate groups that exist out there. He's trying to make sense 
of that, and trying to streamline that right now.
    Mr. Klink. Thank you, Mr. Chairman. I look forward to our 
second round.
    Mr. Upton. Thank you. Mr. Burr.
    Mr. Burr. Thank you, Mr. Chairman. Welcome back, Mr. 
Rezendes. GAO has had prior assessments, as was described by 
Mr. Stupak. What's changed at DOE that should make us all feel 
comfortable that the current suggestions by the current 
Secretary will, in fact, work, or will, in fact, be carried 
through?
    Mr. Rezendes. Despite the negative message here, we're 
always optimistic when we see someone in a high place take on 
the problem, and, in sincerity, try to follow it through to 
make something happen. I think this current Secretary is doing 
that. However, its still a work in progress. We've seen this 
before over the last 20 years. We don't know how it will be 
cascaded down through the infrastructure at DOE, how it will be 
received, and whether they'll follow through. This Secretary 
has been here a short time, and will probably be here a short 
time. The average life expectancy for a Secretary and a Deputy 
Secretary, and an Under Secretary, and an Assistant Secretary, 
is probably about 2 years, 2\1/2\ years, historically. Not just 
at DOE. I'm talking about in the Federal Government in general. 
These contractors have been these for a long time. The 
University of California has managed, as the contractor, 
Lawrence-Livermore and Los Alamos for over 50 consecutive 
years. They have outlasted all the Secretaries of Energy that 
have come and gone.
    Mr. Burr. I probably should ask you some follow-ups about 
that, but I'd be scared to do it today. Let me ask if you 
pursued any leads that were the result of whistle-blowers at 
DOE?
    Mr. Rezendes. We do not. We get that information. We use it 
periodically. We have not frontally addressed any whistle-
blower situation as it relates to safeguarding and security.
    Mr. Burr. Can you give us any indication as to the 
atmosphere at DOE as it relates to whistle-blowers?
    Mr. Rezendes. Not more than what I hear in the press, and 
what I hear from whistle-blowers who call me up.
    Mr. Burr. Has the GAO reviewed the security of DOE's 
headquarters?
    Mr. Rezendes. Actually, no. I don't think we have, to tell 
you the truth. Most of the time, we've looked at the most 
sensitive facilities. I don't think we've ever looked at 
headquarters.
    Mr. Burr. From what you've seen at the facilities, would 
there be a reason to believe that maybe the headquarters might 
need a review?
    Mr. Rezendes. That's an interesting question.
    Mr. Burr. Has GAO reviewed DOD, as it relates to the 
clearance procedures?
    Mr. Rezendes. Yes, we have. In fact, there is a 
counterpart, my counterpart, that does Department of Defense 
work.
    Mr. Burr. Can you compare the findings of the clearance 
procedures at DOD relative to what you found at DOE?
    Mr. Rezendes. We looked at them a while back, but its been 
many years.
    Mr. Fenzel. There's differences.
    Mr. Rezendes. We didn't look, as Mr. Fenzel said. We didn't 
compare and contrast to see who's doing better, but we did look 
at the processes that they both use for security clearances a 
long time ago. We found out that, it was kind of amusing, while 
they each have security clearance processes and secrets, and 
that sort of thing, they each define secrets differently, and 
they each have a different process for clearing people, and 
those processes--there is very little reciprocity. That was at 
the time we looked. I don't know if its changed now.
    Mr. Burr. Let me ask you. Secretary Richardson, I think, 
said in front of the Senate Armed Services Committee, that 9 of 
the 12 weapons facilities are satisfactorily performing their 
security mission. Do you find that to be a true statement? Are 
9 of the 12 free of any security problems?
    Mr. Rezendes. We've been asked by this committee to go back 
and do a follow-up on our recommendations and our reports. 
We're in the process of doing that. I don't have a status for 
you now.
    Mr. Burr. Can you comment at all on the effectiveness of 
the Office of the Inspector General at DOE, as it relates to 
the deficiencies that you found at the DOE facilities?
    Mr. Rezendes. The IG is pretty aggressive. He has a wide 
range of activities with, I'm sure he would say, limited staff. 
He prioritizes those, and I don't think he's spent as many 
resources as we have in this area.
    Mr. Burr. Do you feel comfortable that he understands the 
problems that you've identified, and that others have 
identified at the facilities?
    Mr. Rezendes. I'm pretty confident. We meet with him 
periodically and share agendas and information. I'm pretty 
confident he has----
    Mr. Burr. Given that our concern is with espionage and 
security right now at these facilities, if one accepts that as 
the problem and sole problem, how difficult is it to design a 
system to secure these facilities? Are we talking about 
something relatively easy, or tremendously difficult?
    Mr. Rezendes. The system you would put in place, is 
probably, on a relative scale, closer to the easy side. The 
difficulty is assuring yourself, ever having a high degree of 
confidence, that there is never going to be a breach. I think, 
historically, we looked over the history, we've seen a lot of 
the breaches, or some of them, anyway, have come internally. 
For example, during the Manhattans projects, you had Carl Fukes 
and the Rosenbergs. That was an internal breach of security. 
The Rosenbergs never broke into Los Alamos. I don't even think 
they received secret documents from Los Alamos. I think the 
people who worked there brought them out and exchanged 
information from what was in their head, rather than breaching 
some of the security defenses.
    Mr. Burr. Let me ask you, and I ask the chairman for 
patience. You mentioned earlier the knowledge that's in the 
heads of individuals, versus the sensitivity of bringing 
documents out. Match that, if you will, with this new tool 
called the supercomputer, and make the connection for everybody 
here as to where the knowledge of the head and the 
supercomputer come together, and why that should be a risk.
    Mr. Rezendes. I think that is a really good example. I 
think its easy for researchers who are going down this road, 
who understand that supercomputers have a defense benefit, but 
also, are confronted with the calculations and the difficulty 
and the science of doing it, and getting together with other 
scientists who share those same concerns, and also have 
interest.
    It is easy to subdivide a problem so its so small that you 
can lose track that its going to have anything to do with 
national security in the future. That's why counterintelligence 
and threat assessments are really important. If you knew that 
some of our allies or some of our enemies were targeting 
information on supercomputers, and were also going to do it on 
a piece by piecemeal basis, as Mr. Klink said, rather than try 
to sneak in and steal documents, the strategy you're going to 
use to protect that information from a defensive perspective is 
going to be different, and that's the kind of thing we'd like 
to see DOE do.
    Mr. Burr. Doesn't, in fact, the supercomputer and the 
knowledge that's readily available in people's heads, doesn't 
that really bypass the need to steal the secret, because you 
can recreate what the secret was? You can refine the step that 
it was at?
    Mr. Rezendes. That is correct.
    Mr. Burr. Without active testing?
    Mr. Rezendes. Not easily, but you can do it.
    Mr. Burr. Can you define supercomputer for us?
    Mr. Rezendes. Oh, sure. Supercomputers are state-of-the-art 
computers that DOE is currently developing, and these will do 
calculations at variable speeds. These things have never been 
developed. They've never been built. None exist on the planet, 
and probably won't be, even by DOE's schedule, for years to 
come. These will be able to, once their operational, to 
replicate what happens during a nuclear explosion when there's 
countless different equations that need to be taken into 
consideration.
    Mr. Burr. And we're not talking about an off-the-shelf 
computer?
    Mr. Rezendes. This is the first of its kind.
    Mr. Burr. Even with the advances in chips as we move into 
next year with the new chip.
    Mr. Rezendes. Correct.
    Mr. Burr. They're no where near.
    Mr. Rezendes. Correct. This is the first of a kind.
    Mr. Burr. All right. I thank the chairman.
    Mr. Upton. You're welcome. Mr. Green.
    Mr. Green. Thank you, Mr. Chairman. I apologize for being 
late and not hearing all of your testimony. I have read most of 
it. Would you say, obviously, over 20 years, there has been 
oversight from GAO with very little luck. Is it a systemic 
problem with Department of Energy? They don't have a priority 
on the security issue?
    Mr. Rezendes. I would say they certainly don't have a 
priority. It's been low priority and low visibility.
    Mr. Green. I know that the role of the Department of Energy 
is research, and not necessarily security. It is this Congress 
that would make the decision on whether the Department of 
Energy needs to continue that without some oversight from 
someone who is more security minded, like a military or NSA or 
someone like that. I know that the decision was made long 
before we got here that the Department of Energy would do that 
research. It seems to clash with their campus and their free-
flowing ideas that they have on their facilities. Security 
doesn't match their original goal. It seems like, Mr. Chairman, 
what we might need to do is, fairly quickly, and I know that 
the Secretary and his staff have testified in the Senate, but 
have the Secretary come after a reasonable time and give us 
some goals and objectives, and then within the next year have 
another hearing just like this with the Secretary and maybe a 
follow-up GAO report. So, for the first time maybe in the 20 
years, we can see that say, okay, if you didn't complete it 
this year, what can you do? You took $5 million in 1997, not 
this current Secretary, far be it for me to speak ill of my 
current friend, but you spent $5 million from 1997 and used it 
for, obviously, other things other than security, and now you 
want $40 million? What can we know that will be done what that? 
I think that, Mr. Chairman, is probably what we need to do.
    Let me ask a line of questions. I hope that we would 
follow-up fairly quickly with Department of Energy coming----
    Mr. Upton. Let me just tell my--and I'll stop the clock 
here, like any good line judge. We are intending to do a number 
of hearings. One of the things that we would like to wait upon, 
however, and we'll see what happens, particularly in calling 
our friend, Secretary Richardson, to come, is we're trying to 
see when the Cox report will become more available or 
unclassified. I guess there was a little glitch over the 
weekend, so we'll be checking with Mr. Dicks and Mr. Cox this 
week. But at some point, likely sometime early in May, we 
intend to have the next hearing. We may indeed have a number of 
these.
    Mr. Green. I agree, obviously, we'd like to have the 
benefit of that report, but it also seems like this is a 20 
year problem, whatever the report says, we need--our job is 
oversight on the Department of Energy--we need to follow up and 
see if we can stop this 20 year trend of saying yes to the 
problem, and then nothing being done on it. So, that's why I 
say hold the Department accountable for some security 
oversight, and raise it on their priority level, whether it's 
funding, or whether they have to come back before this 
subcommittee or some other committee on a regular basis to 
justify it. Again, it bothers me, because it seems like it 
doesn't fit in with their original mission for research. They 
want to share ideas and research. Sometimes it's not security 
oriented, but we do have agencies of the government that have a 
security interest in mind that could always oversee it.
    Mr. Rezendes. Well, you raise an interesting point. The 
Department of Energy has recast itself significantly over the 
years. Initially, it was the Department of Energy that was 
responsible for producing nuclear weapons. Then that switched. 
Actually, it started off as the Department of Energy to address 
the energy crisis, the oil crisis at the time. Then it became--
--
    Mr. Green. They haven't solved that problem either.
    Mr. Rezendes. Right. Then most of its money went to 
producing nuclear weapons in the early 1980's. And then it 
switched to an environmental restoration agency, and cleaning 
up the mess that they made when they were producing nuclear 
weapons. And now they've recast themselves again into a 
department of science. In fact, they claim they have four basic 
missions. One is a defense mission, an environmental. 
management, restoration mission, an energy mission, and a 
science mission. And each of those has different priorities, 
and I think they certainly impact on the point you're trying to 
make in terms of how they do the research at these facilities.
    Mr. Green. And there have been efforts over 20 years. I 
know that one of the reports showed 12,000 documents, and they 
found 2,000 documents, but there were still 10,000 somewhere 
that they couldn't find. But that's my concern. A number of 
times over the years, GAO has pointed out to Congress the 
safeguards. One example is GAO finally agreed in 1988 to 
develop a comprehensive security plans for its sensitive sites, 
and it took more than 40 years to do it again. According to 
GAO, because of lack of a management commitment, and again, 
that's our job to try to instill that management commitment. 
Are you even saying, and I hate to mention former Secretaries, 
but former Secretary Watkins, who probably gave security more 
attention than any other Secretary in the 1980's, still didn't 
provide sufficient resources either to headquarters, to follow 
up my colleague, Mr. Burr, or in the field?
    Mr. Rezendes. Well, what happens is, as I mentioned 
earlier, even if the Secretary decides to give more resources, 
it always doesn't happen. There is not a specific line item 
throughout the DOE budget, for example, Los Alamos gets a 
billion dollars to run that facility. They spend it on a whole 
variety of issues, of which one piece would be safeguards and 
securities, and they have wide flexibility in terms of deciding 
how much to allocate for that effort.
    Mr. Burr. Would the gentleman yield for 1 second?
    Mr. Green. Be glad to.
    Mr. Burr. Is that decision made at the Secretary level, or 
is it made at the lab?
    Mr. Rezendes. The implementation is at the lab. I don't 
even know, in fact, I don't think that its ever rolled up to 
the Secretary level, how much is actually being spent, by 
facility, on safeguards and securities.
    Mr. Green. Mr. Chairman, we are not the appropriations 
subcommittee, but we have some responsibility, and I think, 
again, to follow-up on this report, and see if we can instill 
in the Department of Energy that they also have a security 
concern.
    Mr. Upton. I think that's a very good idea. If the 
appropriations committee doesn't do it, we'll do it for them. 
Ms. Wilson.
    Mrs. Wilson. Thank you, Mr. Chairman. I have a number of 
questions on foreign visitors and the background check program. 
First of all, how many cases are you aware of where foreign 
visitors to the labs have actually obtained classified 
information?
    Mr. Rezendes. We are aware of some. Some of those are 
classified.
    Mrs. Wilson. I'm not asking you for the cases. I'm asking 
you how many cases you are aware of.
    Mr. Schulze. We know of some instances where they--we're 
not talking about theft of classified information--but where 
they were inappropriately provided unclassified information. 
There are some situations at Los Alamos where they were 
provided classified information in newsletters. They were put 
on a mailing list, and they shouldn't have been, and they got 
this classified information. Some of these people also were 
from sensitive countries. Additionally, they would attend 
various briefings and got classified information.
    Mr. Burr. Would the gentlewoman yield for a second? Did I 
just hear you say that we mailed classified information?
    Mr. Schulze. It was internal in the laboratory.
    Mr. Rezendes. Right. They were just part of the 
distribution list, and they should not have been.
    Mr. Burr. Can you define a distribution list? I mean, are 
we talking about e-mail, or are we talking about hard copies?
    Mr. Schulze. In this situation, I would imagine its hard 
copies. I can't tell you specifically. I could provide that 
later. I imagine it was by hard copy of a newsletter within a 
group. We're not talking about something that was laboratory 
wide.
    Mr. Burr. But I also get the impression that we're not 
talking about something where there was a record kept of the 
number of copies that were produced.
    Mr. Schulze. I can't answer that.
    Mr. Rezendes. Getting back to the substance of your 
question, if I may. We're probably the wrong ones to ask. We 
would not normally be privy to that information. That is 
something that the FBI would be the ones, if it were available 
and its known, they're the ones that would be investigating and 
keeping that information.
    Mrs. Wilson. Nonetheless, you've come up with a conclusion 
that raises serious questions about the foreign visitor program 
at the lab, and without knowing whether any damage has been 
done, I don't know how we can come up with----
    Mr. Rezendes. We have damages. We have things done. We have 
people who have confessed to disclosing classified information 
from the laboratory.
    Mrs. Wilson. To foreign visitors at the laboratories?
    Mr. Rezendes. Correct.
    Mrs. Wilson. What percent of the foreign visitors do the 
nuclear weapons labs actually visit the limited secure areas of 
the labs? I'm not talking about the solar cells or the engine 
lab, or the environmental restoration aspects. What percent of 
the foreign visitors visit the nuclear weapons----
    Mr. Rezendes. We asked DOE that, and they estimate about 10 
percent.
    Mrs. Wilson. Who estimates 10 percent?
    Mr. Rezendes. DOE.
    Mr. Schulze. You mean actual classified in the secure 
areas?
    Mrs. Wilson. In the limited secure areas of the lab.
    Mr. Rezendes. I'd say 5 to 10 percent, I think is what they 
told us.
    Mrs. Wilson. And are those visitors escorted at all times?
    Mr. Schulze. In the secure areas.
    Mr. Rezendes. They're supposed to be.
    Mrs. Wilson. Did you find any evidence that those visitors 
to the secure area of the labs were not escorted?
    Mr. Rezendes. We did not check for that.
    Mr. Schulze. The work that we were doing, we were looking 
on the unclassified side. We collected information on that, but 
we didn't do a detailed look to see what happens when people go 
into the secure areas. I do know of an example of where a 
foreign national did get in a secure area, and he wasn't 
supposed to be in there. That has happened. In that case, the 
person even came in with a camera.
    Mrs. Wilson. You talk about the number of foreign visits 
per year, and they average about, as I do the math here, about 
2,000 per year at all three of the weapons labs. How does that 
compare with foreign visitors to DOE headquarters?
    Mr. Rezendes. We don't have those numbers.
    Mrs. Wilson. How about the Old Executive Office Building 
and the White House complex?
    Mr. Rezendes. I have no idea.
    Mrs. Wilson. How about the Pentagon? I think you get my 
point here. Foreign visitors and physical theft may not be the 
major threat here, which gets back to my issue of what we're 
looking at, what we can see in our narrow little flashlight, 
and we're likely to miss----
    Mr. Rezendes. We totally agree with that, in fact, I often 
use the analogies of what we're talking about here is in home 
security of the door locks, the window locks, and that sort of 
thing, but it doesn't necessarily prevent a burglar from coming 
in. But, the other side of that is, you don't want to sleep 
with your door open. You want to have some basic minimum 
systems in place and those should be effective.
    Mrs. Wilson. Thank you, Mr. Chairman. I have additional 
questions when we have time.
    Mr. Upton. Mr. Klink.
    Mr. Klink. Thank you, Chairman. In GAO's 1998 testimony 
before the House National Security Committee, you stated that 
sensitive subjects such as the detection of unsanctioned 
nuclear explosions may have been discussed with foreign 
visitors without DOE's knowledge or approval. Let me ask you, 
what is the process in place to control information about items 
that might be sensitive, but would not be classified?
    Mr. Schulze. Discussing a sensitive subject is permissible. 
I mean, it can be done. DOE wants to be notified of the visit, 
what the subject is going to be, and where DOE can make a 
decision as to whether they want that to occur or not, or 
whether they want to put limits or restrictions on what's going 
to be discussed.
    Mr. Klink. How do we know if that's happened? How does DOE 
know if that's happening? How does GAO know that's happening?
    Mr. Schulze. For DOE to know that its happening, the host 
of the visit has to identify the visit as involving a sensitive 
subject. When the host says this is a sensitive subject, then 
it kicks it into a different category. They have to notify DOE. 
It goes into headquarters where people in the office of non-
proliferation of national security look at it, and make a 
determination as to whether this should occur.
    Mr. Rezendes. This gets back to your point earlier about 
this one person in counterintelligence. That was his job, to be 
aware of those visits, debrief, and also to debrief the 
contractors in DOE going overseas. These were thousands of 
visits. It was impossible for one person.
    Mr. Klink. The other point is, what I went back to, is what 
happens is that there become personal relationships.
    Mr. Rezendes. True.
    Mr. Klink. My question is, what criteria are there that the 
host who's responsible for making the report, would, in fact, 
recognize immediately that this was sensitive information, and 
would report it as such, or think this is my dear friend who 
I've met with dozens of times and we, of course, have shared 
information about these things. What is releasing information 
that shouldn't be released, and what isn't, and who's 
responsible for knowing it?
    Mr. Rezendes. No, you're right, and although there is a 
process in place, I think the onus is on the individual who is 
hosting the visit, and if this personal relationship develops, 
as you mentioned, I doubt they're going to be as aggressive in 
notifying ahead of time the right authorities what the meeting 
is going to be about, and what's going to be discussed and 
debriefed at the end.
    Mr. Klink. Describe for the subcommittee what training 
these hosts would have to be able to report these things, and 
to be able to recognize that sensitive information was being 
discussed.
    Mr. Schulze. Basically, I'm going to make a few inferences 
based on talking to counterintelligence folks at the 
laboratories. They're going to have training courses. That is 
one of the responsibilities of the counterintelligence----
    Mr. Klink. Is that going on now, do you know?
    Mr. Schulze. It was being done even when we did our work. 
The problem is, when you have one person doing it, who is also 
responsible for looking at all the visitors coming in, and 
briefing and debriefing everyone on travel, and trying to 
conduct awareness activities, and make people aware of 
counterintelligence and the threats against them, its pretty 
tough. They just couldn't get around to----
    Mr. Klink. And that gets back to our 1 to 2 hours per year, 
per person.
    Mr. Rezendes. Right.
    Mr. Klink. Physically, its impossible timewise, to do this. 
So the question is, do you now think that DOE has a long-term 
commitment to fixing these problems?
    Mr. Rezendes. As I mentioned before, we're always 
encouraged. We've seen a laundry list that the Secretary has 
announced, and he's established a high level commitment within 
the Department, with Ernie Moniz heading this up. We're 
encouraged.
    Mr. Klink. I mentioned a little earlier about the 
administration proposing that we spend $40 million more, and I 
said, and I mean it, we don't want to see this as just throwing 
money at a problem. We've already talked about how the $5 
million was spent. I'm not real comfortable with the idea of 
what they might do with $40 million. On what basis do you think 
that $40 million would be spent effectively? What guarantee do 
you give to Mr. Upton, Mr. Klink, and the rest of us that, in 
fact, there's safeguards in place to make sure this money is 
going to be spent to do what we all want it to do.
    Mr. Rezendes. I would have no commitment to you on that, 
only a pledge that we would follow up to make sure that they 
did.
    Mr. Upton. I'm glad you remembered you're still under oath.
    Mr. Klink. There are so many things. I think that the best 
thing right now, Mr. Chairman, would be to submit some of these 
questions in writing, because we've barely, as with the 
training that the people at these labs are getting, we've 
barely scratched the surface, and I think we would like to have 
a lot more. I would anticipate too, Mr. Chairman, that this is 
not the last of our hearings on this subject. I thank you for 
your patience.
    Mr. Upton. You are indeed correct. Thank you, Mr. Klink. A 
couple of questions I still have remaining, and again, I may 
send some things written as well. You talked a little bit 
earlier about computers still being an open issue. Are there 
other open issues still unresolved, either in your testimony, 
or that DOE ought to be looking into, that you've not 
addressed?
    Mr. Rezendes. Sure. In each of the areas that I went to 
through, everything from material accountability, in terms of 
being able to inventory and verify nuclear materials. From what 
I understand, DOE's own internal evaluation groups still raises 
that as an issue today. I think there's still questions about 
the guard service, in terms of their skills and abilities. 
Personnel security. We thought a lot of that had come under 
control, with the backlogs eliminated, but I'm hearing from 
some sources, that the backlog is back up again in terms of 
taking 6 months to a year to do a security clearance before you 
can get it kicked off. So, I would say every one of those 
areas, and that is one of the things we plan to do for you as 
part of that request.
    Mr. Upton. Now one of the questions that we're going to 
have to ask Secretary Richardson when he comes, hopefully next 
month as these hearings continue, is certainly the worth and 
the value of the visitor program, particularly as they have 
access to both classified, but even sensitive, materials, and 
knowing full well that its going to take a lot of money and 
some time to put the systems in place that you recommended, and 
you recommended over the years.
    What would be the harm, at least in the short term, of 
blocking access, all access, to the sensitive material, as well 
as the classified material until these safeguards are, in fact, 
in place. Knowing full well that they may take at least a year 
to give the training, and put in some of the other safeguards 
that you've indicated.
    Mr. Rezendes. I really don't have a reaction to that. I'm 
sure DOE would, because they would know what they're giving up.
    Mr. Upton. I think there's actually a bill that's been 
introduced by one of my colleagues, that would, in fact, do 
that.
    Mr. Rezendes. On the other side of that, and I'm sure DOE 
would like to give you an answer on that, but we also get 
access to foreign laboratories and facilities. I don't know 
what kind of repercussions that would have. In fact, we were 
half joking saying, ``Maybe the real story here is that DOE is 
getting more out of spying overseas than the spies are getting 
out of here.''
    Mr. Upton. From our folks going over there. You referenced 
a few minutes ago to Mr. Burr, about California, and some of 
the universities there, being there for more than 50 years. 
What type of contract or accountability do you think we ought 
to put into place? That clearly ought to be one of the areas. 
Is there no contract or accountability now? Virtually none?
    Mr. Rezendes. Basically, we've talked about, particularly 
with that contract, lack of specific performance measures as 
they relate to counterintelligence, and they're still not 
there, and we recommended, I think, in the early 1990's. Let me 
give you an example here. When Secretary Pena was there, he had 
a problem at Brookhaven National Laboratory. Brookhaven had a 
facility there that was leaking tritium into the groundwater, 
and, basically, the Secretary said that the local community in 
New York, had lost confidence in that contractor's ability to 
operate that facility effectively. As a result, he fired that 
contractor. To make them an example. To set a clear message 
that when somebody does something that he considers 
significant, he was going to take aggressive action.
    The other side of that is they had the Chicago operations 
office with 40 people onsite, which were the DOE eyes and ears 
to make sure the contractor was doing what they were supposed 
to do. He did the organizational equivalent of firing the 
Chicago operations office by having those folks report directly 
to him, rather than Chicago operations office. We went back 
there later, and we found that, although they were technically 
reporting to the Secretary, they were still reporting through 
the Chicago operations office. That office was still 
responsible for doing the evaluation of the contractor, and 
monitoring them every day to make sure that they were doing 
what DOE wants to do. This gets back to my point of 
responsibility and accountability. It doesn't seem to, when 
something happens, even severe enough to fire the contractor, 
the rest of the organization seems to stay in place.
    Mr. Upton. Of the foreign visitors that continue to go to 
the labs, about what percent of them actually have access to 
classified or sensitive material? Do you have any guess?
    Mr. Rezendes. Well, this gets back to, I think, apparently 
5 to 10 percent, we were told by DOE, actually get into 
restricted areas, and where there is classified information. I 
don't know how many physically get secret documents or 
whatever. I don't know.
    Mr. Upton. Mr. Schulze?
    Mr. Schulze. Is your question how many legitimately get 
classified information?
    Mr. Upton. Yes.
    Mr. Schulze. There are some that occur primarily from 
countries such as United Kingdom, NATO members. Those are 
classified visits, those do occur. But, those are relatively 
few in number. We did not look at those.
    Mr. Upton. Mr. Stupak.
    Mr. Stupak. Thank you, Mr. Chairman. As we speak of 
responsibility and accountability, I want to go back to the 
independent evaluation office. I believe it was back in 1977, 
GAO recommended DOE set up an office of independent evaluation 
of the line programs to assess safeguards and securities. It 
made recommendations in 1983, and I know Mr. Dingell, when he 
was Chairman here, and this committee attempted to accomplish 
the same thing by legislation in 1983, but it was opposed by 
DOE, to put in this independent evaluation office that would 
report directly to the Secretary. The purpose of the GAO 
recommendation, I believe, was to make sure that problems were 
not hidden from the Secretary, and that adequate funding for 
safeguards and securities was obtained. Am I correct in that?
    Mr. Rezendes. Yes. Actually, it was beyond the Secretary. 
It was also to the President.
    Mr. Stupak. Secretary and the President?
    Mr. Rezendes. Right.
    Mr. Stupak. I believe that is what the 1983 legislation 
recommended. From what I understand, this was never done, 
either legislatively or within the internal structure of DOE.
    Mr. Rezendes. There were changes made. In fact, at that 
time, we were recommending either one of two options. Either 
the Nuclear Regulatory Commission take responsibility for this, 
or that an independent group that was separate from the 
programming group that had responsibilities for carrying out 
the safeguards and securities, which in this case, was defense 
programs, and report directly to the Secretary, or someone 
else, so they could have this independent oversight. That did 
happen. In fact, initially, this evaluation group was under the 
defense programs, which also had responsibility for running the 
laboratories, which was the concern. They were eventually moved 
out, as to where they are now under Environmental Health and 
Safety, where they report to the Assistant Secretary there, 
which reports to the Under Secretary. So, there is some of 
that. While they're reporting on the kinds of findings they 
identify, security and safeguard issues, they don't get into 
the budget issues as much as the violations.
    Mr. Stupak. Was it truly independent? With that 
independence, then could they go directly to the Secretary, or 
was there always an Assistant Secretary, or could they go 
directly to the President, as recommended in the 1983 
legislation?
    Mr. Rezendes. I think this has always been through an 
Assistant Secretary, Environmental Health and Safety.
    Mr. Stupak. The office of security evaluations is the 
office that reviews the status of safeguards and securities, 
isn't it?
    Mr. Rezendes. That's correct.
    Mr. Stupak. Is it safe to say that, I think you said, the 
Environment, Safety, and Health division----
    Mr. Rezendes. Environmental health and safety.
    Mr. Stupak. Okay. That's not one of the more prominent or 
potent or powerful divisions within DOE, is it?
    Mr. Rezendes. They do a lot of the environmental 
restoration, environmental management, the health issues. 
They're a good chunk of DOE's budget.
    Mr. Stupak. But within the DOE culture, if you will, 
they're not one of the more forceful ones?
    Mr. Rezendes. I see what you're saying in terms of, do they 
have any more clout that anybody else? No.
    Mr. Stupak. I'm still stuck when I asked my last set of 
questions about don't care, don't understand, or rely to 
heavily on so-called physical defense systems that's going to 
protect us.
    Mr. Rezendes. Right.
    Mr. Stupak. It seems that there's no appreciation of what 
we're doing, what we're dealing with. No one really wants to 
push forward directly to hold people responsible or 
accountable, to use your words. While there's been some 
cosmetic things done in the past, that direct line for the 
accountability, for the responsibility, seems to have never 
really occurred. I guess that's what I'm trying to get at, and 
if I'm wrong, let me know.
    Mr. Rezendes. Oh, no. I think you're exactly on track. I 
think if you look at the organizational structure the way it is 
now, both in terms of the organization of the various elements 
that have responsibility for safeguard, security, 
counterintelligence, intelligence, they are diffuse throughout 
DOE. There isn't unity. In fact, you have various offices that 
have responsibility for establishing standards, and another 
group responsible for assuring that standards are being met, 
but no one has the authority to make sure that these 
recommendations are, in fact, accomplished. In fact, even the 
office of safeguards and security evaluations, which does these 
oversight things, they always make recommendations on things to 
do. But they don't have any force to make sure those 
recommendations, in fact, are implemented.
    Mr. Stupak. Thank you.
    Mr. Upton. Mr. Burr.
    Mr. Burr. Let me ask, are anyone of you aware of a 1997 
directive that may have provided for clearance from one agency, 
say DOD, to actually carry over to DOE? Possibly a Presidential 
directive that required the agencies to have a mutual clearance 
process?
    Mr. Fenzel. There were some efforts. When we looked at that 
situation back in 1995, there were different procedures, and 
actually different clearances in place, if you worked at DOD as 
opposed to DOE. The two agencies were working together so they 
would share their clearances. If you were cleared by one, you 
would be cleared by the other. But we have not looked at 
whether that's full cooperation in regard to those clearances. 
But, I know the two agencies were working together to try to 
correct that situation.
    Mr. Burr. Let me go back to the question of contractors. 
How does DOE go through the process? We talked about, what was 
it, University of California?
    Mr. Rezendes. Right.
    Mr. Burr. How are they chosen? Do they go through a bid 
process?
    Mr. Rezendes. No, they don't. Actually, the University of 
California was selected during the Manhattan Project in the 
1940's to run Los Alamos and Lawrence Berkeley and Lawrence-
Livermore. DOE went through a contract reform a while back. One 
of the objectives of the contract reform effort was that DOE 
should have more competition, that they should open these up. 
The University of California, as I said, has managed these 
facilities for 50 consecutive years without that contract ever 
being re-competed. DOE has successfully re-competed a lot of 
contracts, including other facilities that do laboratory 
research for them. For example, Sandia, Oakridge National Lab 
are run by private contractors.
    Mr. Burr. They never re-competed that particular lab?
    Mr. Rezendes. Correct. In 50 years.
    Mr. Burr. Has it ever been recommended by GAO or any 
other----
    Mrs. Wilson. Would the gentleman yield for a moment? Sandia 
National Lab has been re-competed, and was 6 years ago. Los 
Alamos and Livermore have not, but many of the other national 
labs have.
    Mr. Rezendes. That's correct.
    Mr. Burr. Has there ever been a recommendation for Los 
Alamos?
    Mr. Rezendes. We've advocated that DOE use more 
competition, and that they re-compete as many contracts, or all 
the contracts, including the University of California contract. 
It comes up for renewal every 5 years.
    Mr. Burr. Let me ask you. Given that you have a Secretary 
committed to address the security breach that you have 
identified, that GAO has identified, how long should the 
Congress expect a serious effort to take before we could turn 
to a review by GAO that says we have plugged the problem, that 
we've made tremendous progress in a quantitative way?
    Mr. Rezendes. Soon. I would say real soon. At this 
committee's request, we've started that work already. We'll be 
reporting back soon. We would expect to see results now. We're 
just talking about the guns, guards, the process that's in 
place. We have other folks who are out there. Senator Rudman is 
looking at the system-wide security issues, and will be coming 
out with a report within 60 days. I know that the FBI is 
looking at various issues, and so is the CIA. I think once we 
see those, then we know specifically what kinds of threats or 
breaches have occurred, and then we can make a better judgment 
as to whether we have all the fixes in place that we need to.
    Mr. Burr. Thank the chairman. I yield back.
    Mr. Upton. Thank you. Mr. Bilbray.
    Mr. Bilbray. Mr. Chairman, I want to ask this question, and 
I don't mean it to sound partisan because I think that the 
problem that we've identified is, what we would call multi-
generational, in a lot of ways. But, I'm wondering on the flip-
side, we so often talk about the governments. I'm kind of 
concerned about, have we identified in here the possibility 
that the business activities may be a major problem here, or 
representatives of different business segments? There's been 
concerns about the influence of foreign investors and foreign 
businesses in our political process, and there may be some 
nexus between contributions and access to certain issues. I 
don't want to identify or suggest solely this administration, 
but can we identify to any degree that the business community 
wanting access into these laboratories, and foreign business 
entities gaining access to these facilities?
    Mr. Rezendes. Well, I can tell you now. If you go down the 
list of who is having access to these, these are the numbers of 
visitors to these, and the numbers with actual working 
relationships with DOE is big. Thousands. I don't know if I 
could put a number on it right now. I think each of the 
laboratories throughout the weapons complex have 
collaborations. They have cooperative research and development 
agreements with the private sector. They have wide open use of 
a lot of their facilities, both in terms of using the 
extraordinary equipment that's there, a well as working with 
the scientific brain trust that's at these facilities to help 
solve economic problems for businesses.
    Mr. Bilbray. I just think that we need to learn from past 
mistakes, no matter who did it. We need to start developing a 
system, and making sure that access to information or access to 
facilities are based on good policy, and there's going to be 
some political influence there. We just hope that that 
political influence has not been unduly influenced by political 
participation, you know, and contribution. Again, that is not 
just something that has happened recently. I think its 
something that's inherently a problem in our whole structure. 
Thank you. That's all I have, Mr. Chairman. I yield back.
    Mr. Upton. Ms. Wilson.
    Mrs. Wilson. Thank you, Mr. Chairman. You note in your 
testimony that DOE granted Los Alamos and Sandia a waiver on 
the requirement for the background checks, the indices checks, 
or names checks, as you call them, on foreign visitors. Was 
this a comprehensive waiver covering all foreign visitors to 
the laboratory, or was it a limited waiver, and if so, how was 
it limited?
    Mr. Schulze. I'm trying to remember all of the specifics. 
If somebody was still discussing sensitive subjects or going to 
a secured area, they still had to get the background check and 
notify DOE. But, for the most part, most visitors did not have 
to get a background check. They did not have to notify DOE, or 
do the other background check requirements.
    Mrs. Wilson. So, the waiver only applied to visits of short 
duration and outside the limited area?
    Mr. Schulze. Not necessarily. It could be an assignment. 
There are a lot of assignments that would not be a security 
area.
    Mrs. Wilson. Let me make sure I understand. If they had a 
waiver, and they could allow foreign visitors outside of the 
limited area, is that correct? They still require DOE approval 
to go inside the limited area?
    Mr. Schulze. There's a secure area, there's a limited area, 
and there would be an open area. All of the labs have different 
terminology, but, for the most part, the secure area would be 
where you did your nuclear weapons work, where your classified 
information would be. Then you have a property protection area, 
where sensitive activities could be conducted. Maybe not 
classified, but things you do not want everybody just to have 
open access to. Then there would be other areas, which would be 
considered their open areas. Those areas would be the 
libraries, cafeterias, a few auditoriums, and those kinds of 
things would be open areas.
    Mrs. Wilson. Let me make sure I understand. Exactly how was 
the waiver limited? What was the policy guidance from DOE?
    Mr. Schulze. The policy guidance, essentially, let's use an 
example. If you were an assignee going to a limited area----
    Mr. Rezendes. Assignments are those who are there over 30 
days.
    Mr. Schulze. That normally would require a background check 
in from a sensitive country. You wouldn't have to do that under 
the waiver, Its limited to sensitive subjects and security 
areas, which very few sensitive subjects were identified, and 
very few security areas.
    Mrs. Wilson. You may want to go back and check with DOE on 
exactly the policy guidance. As I understand it, anything 
longer than 30 days did require a background check, and 
anything that was within a limited area also did.
    Mr. Schulze. We will double check, and I'll get back to you 
on that.
    Mrs. Wilson. I appreciate that. With respect to the indices 
checks, or the name checks. What did they really provide in 
terms of value to the laboratory? What does it tell you?
    Mr. Rezendes. I can respond to that. Basically, if you have 
somebody who is affiliated with a foreign intelligence 
organization, and particularly if you have a 
counterintelligence threat assessment that you know what 
they're interested in, you can control who they're seeing. You 
might want to provide additional escorts. You may want to 
control the areas that they're going into, and the topics that 
will be discussed.
    Mrs. Wilson. So if a visitor passes that check, it doesn't 
necessarily mean that they're not gathering----
    Mr. Rezendes. No. Absolutely. You're right.
    Mrs. Wilson. In your testimony, you say that DOE procedures 
lack clear criteria for what is and is not sensitive, and 
therefore, sensitive subjects may have been discussed. Did you 
discover any evidence that sensitive subjects were discussed?
    Mr. Schulze. What we found was items that were on DOE's 
list as being a sensitive subject were the exact things that 
were listed on the paperwork as the subject of the visit. So, 
at that point, the host is to notify DOE of the subject, and 
DOE will make a determination whether its okay or not okay. But 
things like inertial confinement of fusion were on the list. 
Inertial confinement of fusion was discussed. Metals like 
beryllium, which is used in weapons. That was on the list. A 
visit was discussing beryllium. Detection of nuclear weapons 
tests was on the list. A visit involved detection of nuclear 
weapons testing. There was one to one, it was identical.
    Mrs. Wilson. Mr, Chairman, may I ask one final question? 
The Department of Energy, last year, rated Los Alamos National 
Laboratory as excellent in safeguards and security. Am I 
correct in assuming that you disagree with that assessment?
    Mr. Rezendes. I don't know if I disagree. There was two 
basic ratings; ones for 1997 and 1998 in terms of safeguards 
and security. The interesting thing here, and this is the thing 
where you get back to holding people responsible and 
accountable. Los Alamos had 45 major security violations in 
1998. Some of those, unrelated to the current instances, 
involved two people being fired, and two of them still under 
investigation by the FBI for possible criminal violations. If 
you look at what was happening in Los Alamos prior to that, the 
typical year for them was about 20 violations per year. Despite 
the sensitivities, despite the high number of violations, 
despite the fact that some of them were rather severe, DOE 
still gave that contractor an excellent for overall performance 
on its contract for year.
    Mrs. Wilson. And do you disagree with that?
    Mr. Rezendes. I'd say that I find it hard to reconcile 
those two pieces. Yes, I do.
    Mrs. Wilson. Thank you.
    Mr. Upton. Thank you. Mr. Klink?
    Mr. Klink. I just wanted to follow-up, and I don't want to 
get into--I just don't understand the gentlelady's last 
question, because we have the annual report of the President of 
the United States on safeguards and security domestic nuclear 
weapons facilities, and under Los Alamos it says--this is for 
January 1, 1997, through December 31, 1998--it says marginal, 
roman numeral II-4. Your question about the excellent rating 
for Los Alamos. The report that I have is dating January 1, 
1997 through December 31, 1998. I want to make sure we're 
talking about the same things. Prepared by the field operations 
division, office of safeguards and security, office of 
securities affairs, roman numeral II-4. At the top, Los Alamos 
National Laboratory, Albuquerque, New Mexico, overall facility 
rating, marginal.
    Mr. Upton. Mr. Chairman, I'm talking about a different 
report. Its the DOE's annual contractor assessment of Los 
Alamos National Laboratory security and safeguards program.
    Mr. Rezendes. Yes, and if I could add something. There was 
the original reports looking at safeguards and security. When 
they rolled this up to the overall performance for the contract 
for the safeguards and security for the year, they gave the 
contractor an excellent rating.
    Mr. Klink. I just wanted to make sure--which one's real? Is 
it marginal or is it excellent?
    Mr. Rezendes. Well, I think you already have my answer, I 
can't understand how they get an excellent with the kinds of 
problems that they've had there.
    Mr. Klink. We've got some questions, and we need to follow 
up on that, because I think we're all confused. Back in the 
1980's, GAO mentioned in the report that threats from insiders 
were often ignored. I want to get back to this point, because I 
don't think you can make it enough. All of the alleged breaches 
may have come from insiders, not outsiders. We don't have, to 
my knowledge, evidence that computers were breached, that 
guards were overcome by terrorists, or burglars, or thieves, 
that gates were broken down, that classified documents were 
stolen. Again, I guess the question is, what was taken out of 
the minds of the scientists at these national laboratories? I 
think this, again, seems to be the most important aspect of 
counterintelligence and espionage programs.
    I suspect, again, with the discussion that we had about the 
$5 million and how it was spent, and the $40 million. If we're 
not training these scientists to know what espionage to all 
about, and its not James Bond sliding in and stealing something 
surreptitiously, but its about an innocent conversation where 
you're giving up information, and it does not appear to me, 
even though in the letter we stuck in the record today from 
Secretary Richardson, he says that security training is 
underway to educate personnel on intelligence gathering 
activities of foreign interests. He said he's initiated a 
department-wide polygraph program to weed out potential 
counterintelligence programs. If a scientist or someone else 
who's an employee there doesn't know that were a hapless or 
witless victim in the stealing of information from their minds, 
not from their computers, not from their files, then how are 
they going to fail a polygraph?
    Mr. Rezendes. No. You're right. There's two elements there. 
One is, was the scientist duped? Did you know that he was 
culpable, or was he culpable in terms of the breach of 
security, or second, was he really just providing information 
that he thought was not a breach of security?
    Mr. Klink. Mr. Chairman, I share the concern of some of the 
members on both sides of the aisle that we have to be worried 
about who has access to these laboratories, who's going in 
there, but also, if we're going to give them resources, those 
resources have to be used not only to build higher gates, 
better gates, more guns, more guards, but, in fact, to make 
sure that the personnel at the laboratory have training to know 
what information they can talk about, when its sensitive, when 
it needs to reported, who it needs to be reported to. I'm not 
sure that following this hearing, or following the GAO report, 
or following the letter the Secretary, that I'm comfortable--
I'm not speaking for the subcommittee--that I'm necessarily 
comfortable to know that we're all aimed in that direction. 
That we train all of these people at the laboratories to know 
what methodologies may be used against them to gain this 
information that they, in fact, receive the best training 
possible. So, I think that we've got a lot of work cut out to 
make sure that we're able to oversee this.
    Mr. Upton. We do have a lot of work to do, and I guess, Mr. 
Stupak, did you have another question or two?
    Mr. Stupak. I just would like to ask one. The last 
questions were whether Los Alamos was marginal or excellent 
based on the evaluations. Now, Secretary Richardson, has 
changed the reporting structure, so that the offices of 
intelligence and counterintelligence report directly to the 
Under Secretary. The independent evaluator of these programs, 
and others in safeguards and security, are still lower level, 
if you will, or down in the bowels in the Environment, Health, 
and Safety division. So, if they're way down there, who's 
really going to tell the Secretary, the Under Secretary, 
National Security Council, or President that things aren't 
going well?
    Mr. Rezendes. The way the structure is, they are.
    Mr. Stupak. Who is they?
    Mr. Rezendes. The Office of Security and Evaluation, which 
is within the Assistant Secretary of Environmental Health and 
Safety.
    Mr. Stupak. So, you're confident that accountability and 
responsibility is going to be carried out?
    Mr. Rezendes. No. My confidence level wasn't there. In 
fact, we think that they are independent. I think how they 
performed recently and historically in terms of the kinds of 
evaluations they do, are pretty straight. But, I'm not sure 
what kind of information the Secretary is getting from those 
evaluations, or the kinds of priority attention in terms of how 
it translates into the budget, not only from headquarters, but 
also within these facilities to make sure that those things are 
corrected.
    Mr. Klink. Would the gentleman yield? I think that what he 
gets to, Mr. Rezendes, is the point that we were making earlier 
on, and that is this has not been a priority.
    Mr. Rezendes. Correct.
    Mr. Klink. Is it now a priority? Are we heading toward 
making it a priority? Can you help us----
    Mr. Rezendes. Yes. In fact, I've talked to Ernie Moniz, who 
is the Under Secretary, and he is heading up at the Secretary's 
request, a reorganization to look at the very security elements 
at headquarters, and how they report the lines of authority and 
responsibility there, which we think is really vital to making 
sure that some of this stuff is going to work. But even 
squaring that away, you still have DOE as an agency that is 
essentially run by contractors throughout the United States. 
That has to cascade down into a responsibility and 
accountability with contractors. Put it in the contract hold 
them accountable for making sure that they're doing what 
they're supposed to do. Also, hold the Federal employees that 
oversee these contractors accountable to make that they ensure 
that the contractor does what he's supposed to do.
    Mr. Stupak. Well, if they're still in the Environment, 
Safety, and Health divisions, how do you make sure these people 
who are going to do these reports remain independent of DOE, 
and that direct line is accessible and available to them when 
things go wrong?
    Mr. Rezendes. Well, particularly, what kind of information 
is being filtered to the Secretary, and also, what kind of 
priority and oversight is he providing to the contractors to 
make sure that things happen.
    Mr. Stupak. Thanks. Nothing further. Thank you, Mr. 
Chairman.
    Mr. Upton. Mr. Rezendes, we appreciate very much your time 
this afternoon. We appreciate your report. This is the first 
time that I've chaired a subcommittee that has had you come 
before us, and we appreciate your time on this, and giving us 
the report, and your testimony today. We clearly have a lot of 
work to do. You've helped guide, I think, in the process as we 
begin this quest. In going through your report, literally page 
by page, we look forward to implementing all of the 
recommendations that you had. We look forward to working with 
the Secretary of Energy to make sure they do, in fact, take 
place. Thanks very much.
    Mr. Rezendes. Thank you.
    Mr. Upton. This hearing is adjourned.
    [Whereupon, at 4:07 p.m., the subcommittee was adjourned.]

</pre></body></html>
